<html>
<title> - THE TRANSPORTATION SECURITY ADMINISTRATION'S SCREENING OF AIRLINE PILOTS: SOUND SECURITY PRACTICE OR WASTE OF SCARCE RESOURCES?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                      THE TRANSPORTATION SECURITY
                 ADMINISTRATION'S SCREENING OF AIRLINE
                   PILOTS: SOUND SECURITY PRACTICE OR
                       WASTE OF SCARCE RESOURCES

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2005

                               __________

                           Serial No. 109-13

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
23-034                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. Defazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                 ______

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Christopher Cox, California (Ex      (Ex Officio)
Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman Subcommittee on 
  Economic Security, Infrastructure Protection and Cybersecurity
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security
  Oral Statement.................................................     4
  Prepared Statement.............................................     7
The Honorable Peter A. DeFazio, A Representativ in Congress From 
  the State of Oregon............................................     3
The Honorable Norm Dicks, a Representative in Congress From the 
  States of Washington
  Oral Statement.................................................    35
  Prepared Statement.............................................    35

                                WITNESS

Ms Debra Burlingame, Member, 9/11 Families for a Secure America
  Oral Statement.................................................     8
  Prepared Statement.............................................    12
Captain Duane Woerth, President, Airline Pilots Association
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Ms. Candace Kolander, Flight Attendant, Alaska Air, Association 
  of Flight Attendants--Communication Workers of America (AFA-
  CWA)
  Oral Statement.................................................    20
  Prepared Statement.............................................    22

                                APPENDIX
             Additional Questions Submitted for the Record

Questions Concerning the Screening of Pilots.....................    43

 
                      THE TRANSPORTATION SECURITY
                 ADMINISTRATION'S SCREENING OF AIRLINE
                   PILOTS: SOUND SECURITY PRACTICE OR
                       WASTE OF SCARCE RESOURCES?

                              ----------                              


                          Friday, May 13, 2005

                  House of Representatives,
 Subcommittee on Economic Security, Infrastructure 
                     Protection, and Cybersecurity,
                            Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:40 a.m., in 
Room 310, Cannon House Office Building, Hon. Dan Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Cox, Linder, DeFazio, and 
Dicks.
    Mr. Lungren of California. The Committee on Homeland 
Security's Subcommittee on Economic Security, Infrastructure 
Protection, and Cybersecurity will come to order.
    The subcommittee is meeting today to receive testimony on 
TSA's screening of commercial airline pilots. The purpose of 
this hearing is to examine whether the screening of airline 
pilots at airport security checkpoints is an appropriate use of 
scarce Transportation Security Administration resources.
    At the outset, let me apologize for being somewhat tardy. I 
had to give a welcoming talk to, or make welcoming remarks to, 
the NCAA National Championship Women's Soccer Team; which was 
not from USC, by the way, but from the University of Notre 
Dame, my alma mater, and I wanted to make sure I was there. 
Unfortunately, they were a little late. So I beg your 
indulgence. They were probably going through security; that is 
correct.
    There is no doubt that airline passenger screening 
continues to be the most visible and most problematic activity 
of TSA. I am informed that since September 11, the Federal 
Government has spent over $13 billion on this function, with 
the President calling for another $3.9 billion in the fiscal 
year 2006 budget. Unfortunately, according to the Department of 
Homeland Security Inspector General, in the 2-1/2 years since 
the Federal Government took over passenger screening, screening 
performance has not necessarily improved.
    I believe that Americans are willing to shoulder necessary 
burdens to ensure the security of the flying public; however, 
we should make sure that TSA is not using precious taxpayer 
resources in an unwise fashion.
    TSA continues to focus its efforts on preventing dangerous 
objects from getting onto aircraft; and the question is, what 
about dangerous people? All of us have gone through the 
screening process, all of us are willing to undergo the 
inconvenience and sometimes the indignity of this, so long as 
it seems to make sense. But just common observation would ask 
the question: Does a wheelchair-bound grandmother pose the same 
risk to aviation security as perhaps a group of agitated young 
men? And what threat is TSA addressing when it separates a 
small child from its parents for a pat-down, as recently 
happened with one of my staff people when she was attempting to 
fly from Sacramento down to San Diego, and she and her three 
children were all taken out for a secondary search, and she was 
told, rather aggressively, to just stand there while she was 
separated from her children. And when one of her children, a 
young girl, got frightened and she went for her, she was 
forcefully told by the TSA individual that she was supposed to 
stay where she was and not move until she had been wanded. I am 
aware of 2-year-olds being patted down in certain secondary 
searches.
    And so we have to ask, does this make sense? And we are 
going to ask a question today: Does it make sense to physically 
screen airline pilots when we are talking about specific 
groups? Now, maybe it does, and I am certainly willing to 
listen, but I am informed that airline pilots are subjected to 
psychological exams every 6 to 12 months; that they hold a 
security identification area badge; and, in order to do that, 
they have to have their fingerprints run against the FBI's 
criminal records database. It would suggest that we know a 
little bit more about them than we know about other people, and 
yet there doesn't seem to be any distinction made. By some 
estimates, our country's over 100,000 airline pilots are 
subjected to checkpoint screening over 20 million times a year. 
One has to ask: Is that a useful use of our resources?
    I would hope that TSA would accelerate commonsense 
programs, such as the transportation worker identification card 
and the registered traveler program used by metric identifiers 
to prove these people are who they say they are. So my intent 
is, over time, to look at this comprehensively, to make sure 
that if we are going to inconvenience the American public--and 
they are willing to do that so long as they are assured that 
what is being done is worthwhile.
    And so today I thank our witnesses for taking the time to 
join us, and I look forward to hearing each of your 
perspectives on this issue. It is now my privilege to recognize 
the Chairman of the full committee for any comments that he 
might make.
    Well, I will recognize our friend from Oregon first, as a 
matter of protocol.

   Prepared Opening Statement of the Honorable Daniel E. Lungren, a 
Representative in Congress From the State of California, and Chairman, 
   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

    [Call hearing to order]
    I would like to welcome everyone today to a hearing of the 
Committee on Homeland Security Subcommittee on Economic Security, 
Infrastructure Protection, and Cybersecurity. This morning, we will 
focus on the Transportation Security Administration's (TSA) policy 
towards the screening of airline pilots.
    Airline passenger screening continues to be the most visible and 
most problematic activity of TSA.
    Since 9-11, the Federal government has spent over $13 billion on 
this function.
    The President is calling for another $3.9 billion in the FY 2006 
budget.
    Unfortunately, according to the Department of Homeland Security 
Inspector General, in the two-and-a-half years since the Federal 
government took over passenger screening, screener performance has not 
improved.
    Americans are willing to shoulder the necessary burdens to ensure 
the security of the flying public; however, I remain concerned that TSA 
is not using precious taxpayer resources wisely.
    TSA continues to focus its efforts on preventing dangerous objects 
from getting onto aircraft, not on dangerous people.
    One of the hallmarks of Federal airline passenger screening is that 
it treats everyone the same.
    While this policy may be comforting to some, I do not believe it 
makes good security sense.
    Does a wheelchair-bound grandmother pose the same risk to aviation 
security as a group of agitated young men? What threat is TSA 
addressing when it separates a small child from its parents for a pat-
down?
    TSA should be paying more attention to those passengers most likely 
to pose a terrorist risk.
    Which begs the question: ``Why does TSA physically screen airline 
pilots?''
    Airline pilots hold a special place of trust in our society. We 
trust them with our lives and our family's lives every time we step 
aboard an airplane.
    Pilots go through great lengths to prove that they are worthy of 
that trust.
    To maintain their airman's certificate, their names are routinely 
run against the terrorist watch-list and the no-fly list.
    When they are first hired by an airline, they undergo a rigorous 
psychological exam.
    They can be subjected to another psychological exam every 6 to 12 
months as part of their required medical exams.
    To hold a Security Identification Area (SIDA) Badge, pilots must 
have their fingerprints runs against the FBI criminal records database.
    Yet when it comes to screening, we treat them as if they were some 
unknown quantity walking of the street.
    By some estimates, our country's 100,000 airline pilots are 
subjected to checkpoint screening over 20 million times a year.
    TSA must accelerate common sense programs such as the 
Transportation Worker Identification Card and the Registered Travel 
Program that use biometric identifiers to prove these people are who 
they say they are.
    This will allow fully-vetted individuals to bypass the general 
screening queue, which, in turn, will shorten lines and reduce TSA 
costs.
    I would like to thank our witnesses for taking the time to join us 
today. I look forward to hearing each of your perspectives on this 
issue.
    I now recognize the Ranking Member of the Committee, Mr. Thompson.

    Mr. DeFazio. Thank you, Mr. Chairman. I always am happy to 
go after the Chairman, but I will respond in part to your 
remarks.
    I have spent--this is my 19th year on the Aviation 
Committee, and obviously we have spent a tremendous amount of 
time on this issue. In fact, I introduced my first legislation 
to enhance passenger screening in 1987 because of briefings I 
received at that time and the extraordinary shortcomings that I 
found with the system and the technology used in the system.
    Unfortunately, we are using the same technology for the 
most part today that they were using in 1987, which is 
machinery that was thrown out at the Capitol more than 15 years 
ago--and at the White House--as inadequate to the task, but 
somehow we think it is adequate for airports.
    So in part, the problems you pointed to between the IG and 
the GAO relating to screeners go to the fact that they are 
working wih two-dimensional, antiquated x-ray equipment, which 
cannot readily detect what we are using now as simulated 
threats, 21st-century threats, and are totally inadequate to 
detect plastic explosives. So we do need to focus on that and 
move ahead with improvements in the technology or add-ons to 
technology.
    The ``trusted traveler'' has been a point of frustration 
since the formation of the TSA. The first head of the TSA Mr. 
Magaw, just never quite understood it, although he himself 
never stood in a line anywhere for one second. He was very 
resistant, slowed it down, and the administration does not seem 
to have fully embraced it. I stand at the long lines at 
National looking at the unutilized trusted traveler machine, 
because I can't get a trusted traveler card because I don't fly 
American out of National; I fly United, and you have to be an 
American passenger to get one of those cards at National. And I 
am sure there are a lot of other frequent fliers standing in 
the same line.
    Again, we could--and my opinion is CAPPS and other things 
focusing on the people are going to be a problem with those 
technologies, but if we could remove the people who we know are 
not threats and subject them to minimal screening, or perhaps 
no screening in the case of pilots, we could expedite and allow 
the TSA employees to focus on the unknown people and the 
unknown bags that are being carried.
    Again, unfortunately, they are moving at a very, very, very 
slow pace with the trusted traveler program, which I believe 
could pay for itself. I would be happy to pay, as would most 
other frequent travelers, the full amount of the cost of my 
background check, and even chip in a little extra to help them 
buy the technology if we could expedite things in that manner.
    So I think this is a timely hearing and a good beginning, 
sort of a small baby step in approaching the greater problems 
with passenger screening and aviation security. I thank the 
Chairman for calling us together here today, and look forward 
to the testimony.
    Mr. Lungren of California. I thank the gentleman.
    The Chair now recognizes the Chairman from the full 
committee, the gentleman from California, Mr. Cox.
    Mr. Cox. I thank the Chairman. Let me begin by welcoming 
and thanking our witnesses for appearing before the committee 
today.
    I would like to welcome first Ms. Debra Burlingame, who is 
here representing 9/11 Families For a Secure America. She has 
won the admiration of our entire Nation for the way that her 
work on protecting Americans against future acts of terrorism 
is honoring the life of her late brother, Captain Charles 
Burlingame. He was the pilot of American flight 77, which 
crashed into the Pentagon on September 11, 2001. His sister has 
transformed her grief into an opportunity to help make our 
Nation and airline travel safer.
    Captain Duane Woerth, we appreciate the expertise that the 
Airline Pilots Association brings to this hearing. ALPA has a 
long and distinguished record of service to our country on 
airline safety and security issues. We look forward to your 
comments on the issues before the committee this morning.
    I would also like to welcome to the hearing Ms. Candace 
Kolander, representing the Association of Flight Attendants. As 
the men and women responsible for passenger safety in the event 
of a terrorist attack in flight, you have much wisdom to offer 
us as we tackle these problems of security screening.
    Each of you was affected in some unique fashion by the 
terrorist events of September 11, 2001, and we appreciate your 
coming before the committee.
    I am very pleased that this subcommittee is focusing on the 
need for a more rational approach, a more effective approach to 
security screening in passenger air transportation. This 
committee and the subcommittee today are committed to ensuring 
security at every one of our Nation's 486 commercial airports. 
We want to ensure the security against future acts of 
terrorists for every aircraft and all the passengers that 
utilize airport services, and we want to do this while 
improving the flow of trade and legitimate travel.
    In its efforts to tackle threats to aviation security 
following September 11, 2001, we in Congress enacted 
legislation which charged the Transportation Security 
Administration with security screening for passengers in air 
transportation. And in furtherance of this congressional 
mandate, TSA has developed and applied a system for screening 
not only airline passengers but also the pilots and the flight 
crews, and we want to examine that today. We are focusing on, 
in particular, TSA's protocols for screening airline pilots.
    Just as with many other aviation security functions adopted 
since TSA was established, TSA has not applied a risk-based 
assessment to the screening of airline pilots. There are about 
100,000 commercial airline pilots who undergo not only the 
extensive background checks that my colleagues have described, 
but also the same ordeal of standing in line on their way to 
the plane once they get to the airport. They are treated, the 
pilots, exactly the same as the general public. As a result, 
TSA conducts 2 million security screenings for airline pilots 
every month, and that adds to the long lines and wait times at 
airport checkpoints for all the rest of the passengers. And yet 
we know a lot about these pilots; it is not as if they are 
strangers showing up in line. We are simply failing to use the 
information we have about them, including biometric 
information.
    In contrast, TSA permits some categories of airline 
workers, not the pilots, such as baggage handlers and people 
responsible for aircraft equipment on the airplane itself to 
bypass this same screening. There is not much logic in treating 
pilots who take control of the plane differently from the 
mechanics and the baggage handlers who service the airplane. I 
don't think there is any question that airline pilots, among 
all of the airline employees, are the most vetted category. Not 
only do pilots have their names checked against terrorist watch 
lists, like the passengers, but they have already undergone 
extensive background checks, including criminal background 
checks, psychological tests, physical examinations and so on, 
all of these things related not just to counterterrorism but, 
of course, to airline safety, because we want to be sure about 
these men and women who are flying the airplanes, for very good 
reason: We want to be able to trust our airline pilots.
    Now, if we trust airline pilots with flying the plane, with 
ensuring the safety of all of the passengers and the crew and 
people on earth below, what is the rationale for treating them 
as complete strangers when they show up at the airplane and 
making them stand in line with all of the other passengers, 
many of whom we have never seen before?
    Airline pilots, unlike the other passengers, don't need 
guns and knives in order to take control of the aircraft. They 
have the keys, they are in command of the aircraft. And those 
aircraft, as we learned in such grisly fashion on September 11, 
2001, are themselves potential dangerous weapons. They carry 
thousands of pounds of fuel.
    Just taking a limited case, a 747, fully loaded with fuel; 
that craft, as a missile, as a weapon, weighs almost a million 
pounds, and it could be used to inflict devastating damage to 
almost any given terrorist target.
    Now there is no question that comprehensive screening of 
flight personnel is important. The question is: Is the system 
that we are using designed to do that for us? Are we learning 
anything as these pilots go through the security screening? 
One--and perhaps the only one example of why it is important to 
have additional on-site screening at the airport--is that the 
person showing up saying they are the pilot, this person that 
has been fully vetted, might not be that person; it might be an 
imposter wearing a stolen uniform with a stolen ID, maybe with 
a stolen gun. And then we have to ask ourselves: Is the system 
that we have in place at the airport designed to catch that 
person, or are they just flashing an ID and wearing their 
uniform and their gun and getting directed right up through the 
airplane anyway? If that is what is going on, then all of these 
pilots standing in line are buying us no security and only 
cost. That is one of the questions we want to explore today.
    We also want to compare this current system for pilots with 
another complete solution that is already on the books, the 
Transportation Worker Identification Credential, that goes by 
the acronym of TWIC. TWIC uses biometric features. TSA can 
improve the processes by which security screenings are 
determined for airline, airport, and other transportation 
workers and better manage access to secure areas of airports 
and other transportation facilities, in my view, by expediting 
TWIC.
    The Maritime Transportation Security Act of 2002 mandated 
that TSA develop TWIC for workers requiring unescorted access 
to secure areas of transportation facilities. By establishing 
this common credential with biometric features of the user, TSA 
could improve security across all transportation modes and 
better manage access to secure areas of our national 
transportation systems.
    And if we applied it in this fashion, then airline pilots 
would be able to bypass airport checkpoint screenings, making 
sure they get to their planes on time, and making sure that the 
rest of us who are waiting to get on the plane get there a 
little bit more quickly. The result would be shorter wait times 
for air travelers and increased efficiencies in airline and TSA 
operations.
    Yet, 3 years after Congress directed TSA to develop this 
means of positively identifying transportation workers, TSA has 
not yet completed development and distribution of the TWIC.
    Mr. Chairman, I have as many questions as I do thoughts on 
this subject, and I am very much looking forward to hearing 
what our expert witnesses have to say on this subject. I really 
want to commend you for focusing Congress' attention on this 
issue this morning.

    Prepared Opening Statement of the Honorable Christopher Cox, a 
Representative in Congress From the State of California, and Chairman, 
                     Committee on Homeland Security

    Thank you Mr. Chairman. Let me first welcome and thank the 
witnesses for appearing before the Committee today.
    I welcome you to this morning's hearing, Ms. Burlingame, and the 
valuable perspective you bring to this hearing. Those of us that have 
helped wage the war on terror since the terrorist attacks on the United 
States almost four years ago, know how the grief you suffered from the 
loss of your brother, Captain Charles Burlingame, who piloted American 
Airlines Flight 77, which crashed into the Pentagon on September 11, 
2001, has been transformed into an opportunity to help make our nation 
and airline travel safer and another terrorist attack.
    Captain Woerth, we appreciate the expertise that the Air Line 
Pilots Association brings to this hearing. ALPA has a long and 
distinguished record on airline safety and security issues, and we look 
forward to your comments on the issue before the Committee this 
morning.
    I would also like to welcome you to the hearing, Ms. Kolander. 
Flight attendants make important contributions in improving security in 
airline travel and I look forward to your testimony.
    Each of you was affected in some unique fashion by the terrorist 
attacks of September 11, 2001, and we appreciate your coming before the 
Committee to offer your perspective on whether TSA's comprehensive 
screening of airline pilots is an appropriate use of its limited 
resources.
    I am very pleased that the Subcommittee on Economic Security, 
Infrastructure Protection and Cybersecurity is focusing on the need for 
a more rational approach to security screening in passenger air 
transportation at today's hearing. This Committee is committed to 
ensuring security at our nation's 486 commercial airports, and the 
aircraft and passengers that utilize airport services, while ensuring 
that flow of trade and legitimate travel are not unduly impeded by 
burdensome and unnecessary screening requirements at our airports.
    In its effort to tackle threats to aviation security following the 
terrorist attacks on September 11, 2001, Congress enacted the Aviation 
and Transportation Security Act (ATSA) of 2001, which among other 
requirements, charged the Transportation Security Administration with 
ensuring civil aviation security, including security screening for 
passengers in air transportation. To meet this aviation security 
mandate, TSA has developed and applied a set of screening protocols for 
airline passengers and flight crews.
    Today, we are focusing on TSA's comprehensive screening of airline 
pilots because just as with many other aviation security functions 
adopted since it was established, TSA has not applied any risk-based 
assessments to the screening of airline pilots. Consequently, most of 
the 100,000 commercial airline pilots must undergo security screening 
similar to that done for the general public. TSA conducts two million 
security screenings for airline pilots per month, adding to long lines 
and wait times at airport checkpoints.
    In contrast, TSA permits some categories of airline workers, such 
as those who handle baggage and aircraft equipment, to bypass physical 
screening at airport checkpoints. There is no logic in exempting from 
screening workers who handle baggage and aircraft equipment, while 
requiring comprehensive security screening for airline pilots.
    Without question, airline pilots are the most vetted category of 
individuals in the industry. Not only do pilots have their names 
checked against terrorist watch lists, they also undergo criminal 
history background checks and psychological tests before they are 
employed, and semiannual physical examinations.
    If we trust airline pilots with ensuring the safety of passengers, 
the aircraft and crew, what is the rationale for subjecting them to the 
same level of security screening as the general public? Airline pilots 
do not need guns or knives to do harm to aircraft, passengers, or 
targets on the ground. In the course of their duties, they are in 
command of aircraft, which are, themselves, potential terrorist 
weapons, carrying thousands of pounds of fuel. A fully-loaded 747, for 
example, weighs approximately 917,000 pounds and could be used to 
inflict devastating damage to almost any given terrorist target.
    There is, of course, one scenario in which comprehensive screening 
of flight personnel could be valuable--the case of imposture, where 
someone with a stolen uniform and forged identification sought to board 
the aircraft. But has TSA actually done the kind of analysis of 
terrorist capabilities and intentions that could balance the likelihood 
of this threat against the burden of comprehensive screening of airline 
personnel?
    More to the point, there is a complete solution to this problem 
already on the books--the Transportation Worker Identification 
Credential, or TWIC, using biometric features.
    TSA can improve the processes by which security screening is 
determined for airline, airport, and other transportation workers and 
better manage access to secure areas of airports and other 
transportation facilities by expediting the TWIC. The Maritime 
Transportation Security Act of 2002 mandated that TSA develop the TWIC 
for workers requiring unescorted access to secure areas of 
transportation facilities. By establishing this common credential with 
biometric features of the user, TSA could improve security across all 
transportation modes and better manage access to secure areas of our 
national transportation systems. If applied in this fashion, airline 
pilots would be able to bypass airport checkpoint screening, since they 
would have already had threat assessment and criminal history 
background checks. The result would be shorter wait times for air 
travelers and increased efficiencies in TSA's operations.
    Yet three years after Congress directed TSA to develop this means 
of positively identifying transportation workers, TSA has still not 
completed development and distribution of the TWIC.
    More broadly, TWIC is a step towards the kind of policy that TSA 
should be adopting--one that moves more and more blocks of travelers 
out of the screening system through the use of reliable, and preferably 
biometric, identification. By clearing this chaff from our radar 
screens, such policies will enable TSA to focus on the fraction of 
travelers who are genuinely of interest, and to do so without recourse 
to the kinds of profiling that should arouse our concerns.
    The Transportation Security Administration's paramount 
responsibility is securing transportation. While I recognize the 
importance of security screening within the airport environment, we 
need to ensure that security practices do not needlessly harm the 
nation's economy and diminish the freedoms that have defined our way of 
life. While the TSA strives to protect the nation's transportation 
modes, TSA must also pursue sound policies that will ensure the 
efficient movement of people and goods.
    The challenge before us, then, is helping TSA to find the right 
balance between security and common sense protocols in its screening 
processes. TSA's comprehensive screening of airline pilots seems to me 
to be a questionable use of its limited resources in this time of 
fiscal constraints. I look forward to hearing from you how we can work 
together to effect improvements in these areas.

    Mr. Lungren of California. Thank you very much, Mr. 
Chairman.
    We are pleased to have an expert panel of witnesses before 
us today on this important subject. And just let me remind the 
witnesses that their entire written statement will be entered 
into the record, so we ask that you strive to limit the oral 
testimony to the 5-minute period allotted.
    Mr. Lungren of California. The Chairman will now recognize 
Ms. Debra Burlingame, who is speaking today as a member of the 
9/11 Families For a Secure America.

  STATEMENT OF DEBRA BURLINGAME, MEMBER OF 911 FAMILIES FOR A 
                         SECURE AMERICA

    Ms. Burlingame. Thank you, Chairman Lungren. And also thank 
you to the distinguished members who are here, even though it 
is a Friday, but we are very happy you are here to hear what we 
have to say. And I am honored to be here before you and this 
committee to discuss the TSA's proposed screening of airline 
pilots. I think it is a very important issue for the country, 
for the flying public, and the American people.
    I am a member of 9/11 Families For a Secure America, but as 
I say in my written statement, I feel my most important 
qualification is being Chic Burlingame's sister. I learned a 
lot about aviation from him. I was a flight attendant myself 
for 7 years, but it was through Chic's eyes that I saw 9/11, 
and it is through Chic's eyes that I see the safety of our 
country going forward in what we are doing and evaluate it. 
Sometimes I feel him--I hear him whispering in my ear, and I am 
going to share a little bit of that with you this morning.
    Chic was a pilot for American Airlines for 22 years. He was 
qualified on Boeing 57s, 67s. In his 22 years, he flew at 
various times domestic and international routes. Before that, 
he was an elite Navy pilot, a carry base pilot, flying in the 
Mediterranean. And he was with the Navy for a combined service 
of 25 years, Active and Reserve duty. He died the day before 
his 52nd birthday.
    While the attack on this country 3 years and 8 months ago 
was a horror for all of us, for all Americans, the commercial 
aviation industry endured a particularly brutal experience. 
While most people watched the planes hit the buildings and the 
towers fall, with shock and disbelief, for flight crews 
witnessing the summary executions of their fellow crew members 
and those helpless passengers was a deeply personal experience. 
These are people who love airplanes, who spent their entire 
lives associated with aviation, many starting from the time 
they were children, like my brother, dreaming of the joy of 
flight. To them, seeing an aircraft used as an instrument of 
mass destruction is a perversion which contradicts everything 
they know and all they have trained to do.
    And I am grateful to be before this committee today so that 
I can commend them publicly for the incredible courage they 
displayed in the days and weeks after they lost so many of 
their colleagues. They understood that these attacks were not 
simply an effort to bring down airplanes and buildings, they 
knew that this was a full-out assault on the United States 
economy. And no one knows better than these aviation 
professionals how vital this industry is to our national and 
global economy. And so with heavy hearts, they put on their 
uniforms, they got back on the planes, and by their example 
they restored confidence in the flying public in our commercial 
aviation system.
    And as a former flight attendant, and, above all, as Chic's 
sister, I cannot tell you how grateful our family was to see 
the jets up in the air again.
    As you gentlemen have said already, no group of individuals 
understands what is at stake here in making our aviation system 
work better than the people who get on those planes every day. 
And I urge you, Members of Congress and this committee, to play 
close attention to what they have to say. They are uniquely 
qualified, just as you have said, they are highly educated, 
they are extremely intelligent, they know the aircraft, they 
know the environment on the ground and in the air, and their 
experiences have given them an ability to cut through the heart 
of any issue that affects their world.
    The story I want to tell you about my brother: He, as I 
said, flew a lot of routes, including from Dulles to Los 
Angeles. And on one particular trip he was flying back from 
L.A. Another one of my brothers took him to the airport. And, 
before 9/11, flight crews bypassed security by going straight 
to the ramp or to operations through the ramp, or various other 
means, but they didn't, obviously, go through screening.
    On this particular day, Chic decided to submit to security 
screening, because he wanted to simply be with my brother and 
chat with him as they walked down the terminal. So he put his 
bags on the ramp--or through x-ray, his crew kit through x-ray, 
he went through the magnetometer, and my brother Brad followed 
him. And when they were finished, Chic sort of shook his head 
and muttered under his breath, and Brad said, ``You object to 
that? Why shouldn't air crews be screened? You could be 
secreting a knife, you could have a gun in your crew kit. Why 
not?'' And Chic's response was, ``I am a pilot. I am a pilot. I 
don't need a gun or a knife, I have an airplane filled with 
60,000 guns of jet fuel; in essence, I am flying a missile.'' I 
think that goes to the heart of what we are discussing today.
    That conversation that he had with my brother Brad was in 
1999, 2 years before Chic's Boeing 757 was commandeered and 
used as a weapon of mass destruction in exactly the manner he 
imagined. And it clearly illustrates what flight crews 
understood then and continue to believe now: that it is 
counterintuitive and counterproductive to subject, as you say, 
the most highly referenced, heavily backgrounded, and 
operationally visible employee group in the private sector to 
airport security screenings. They are fingerprinted, they are 
photographed, they are routinely monitored, as you said, 
Chairman Cox. And some even continue to serve as military 
Reserve pilots, as my brother did. They have long, long 
records.
    And pilots know one another. I think after 9/11 I don't 
think an imposter could pull it off, frankly, even if he had a 
TWIC ID. I think pilots are scrutinizing everything in their 
world in a much sharper way post-9/11.
    But my question is: What does it say to the flying public, 
beyond the issue of resources, just in terms of sheer common 
sense? What does it say to the flying public for TSA to be 
subjecting flight crews to x-ray screening and wanding them 
within minutes of handing over the controls to a lethal weapon?
    And I agree with you all that seeing blue-haired ladies 
being, you know, wanded--I have seen arthritic passengers have 
to be helped in and out of their shoes. And I think it is sad 
to me to see a captain in a spread-eagle position, frankly, 
preparing for a pat-down.
    I don't think, ultimately, that this instills confidence in 
the flying public. I don't really even understand what the 
purpose of it is, because the identity thing, it simply doesn't 
make sense.
    Meanwhile--and this is my great concern and the concern of 
9/11 Families for a Secure America--the TSA continues to allow 
hourly wage employees who are not subjected to background 
checks to bypass security screenings altogether. Nonsecure, 
unskilled workers who are employed on airport perimeters and 
security areas on the ramp, and even on the airplanes 
themselves, carry unsearched, unscreened personal belongings 
such as backpacks with them. And I know, because the pilots are 
telling me this; they are seeing them.
    Over the last 3 years, ICE agents and Operation Tarmac have 
discovered nearly 6,000 unauthorized workers at airports and 
maintenance facilities around the country, and they have 
arrested over 1,000 illegal aliens, including 5--a fugitive 
alien, I believe it was at Boston Logan, with an outstanding 
deportation order. They have issued 775 criminal indictments.
    These facts suggest that the TSA lacks a fundamental 
understanding of the threat we continue to face, because even 
as we struggle to collate the databases which make up the no-
fly list consisting of the names of the FBI, State Department 
and the Intelligence Community, the TSA continues to allow 
passengers to board airplanes with Mexican Matricula Consular 
ID cards. These. I have a handful of them here.
    As a member of the FBI's Office of Intelligence testified 
before the House Judiciary Subcommittee nearly 2 years ago, 
these are aggressively marketed by the Mexican Government. They 
take them out in mobile consulates. They go to street fairs and 
high school parking lots. They have marketed them in now 360 
American cities. The FBI calls this a laminated piece of paper; 
that is all it is. It doesn't have a database connected to it. 
The Mexican Government now says there are security features 
embedded in these cards, but in fact there is no machine that 
can read these alleged security features. And it doesn't matter 
anyway because they are accepted at airports all across the 
land.
    And I have one here that I had made for me--by the way, 
this is accepted at National Airport. This counterfeit card 
would be accepted at National Airport. They don't have the 
means to read security features, so they don't look for them.
    I have one for you, Chairman Lungren. Here it is, with your 
actual name, your actual address, and your actual birthday--
which we don't say.
    I have one for you, Chairman Cox. I have one for the 
Ranking Member of your committee, Mr. Bennie Thompson, which I 
will give to his aide. And I also have one for the Ranking 
Member of this subcommittee, Congressman Sanchez, with her 
birth date too.
    The interesting thing about these cards is--and I have got 
six of them here, you can make hundreds of them. I had these 
overnighted to me for this hearing, and if I had had more time, 
I would have included your Mexican birth certificates, with all 
your names and where you were born in Mexico. That is how it is 
marketed on the street. That is where these people get them. 
And it is, frankly, shocking to me that the TSA would allow 
these to be used at airports as identification, not knowing who 
these individuals are, and yet they are going to put Duane 
Woerth's membership through screening when they know more about 
these men than they can possibly know--men and women.
    It seems to me that as we harden passports, as we 
scrutinize visas and make them much harder to get, we are 
taking these tools away from terrorists to get on airplanes, 
but now we are giving them another one.
    What good is it to discuss airplane screening of these 
highly vetted pilots when we are letting these folks on and we 
don't know who they are, we have no idea who they are?
    I appreciate the difficult challenges that the 
Transportation Security Administration faces as we forge ahead. 
But you know, after the trauma of 9/11, 3 years and 8 months 
ago, this country's heart was broken. It was. It wasn't just 
the families; the country's heart was broken. And it is 
absolutely unacceptable for the TSA and Members of Congress to 
put the economics and the politics of illegal immigration above 
the safety and security of its citizens.
    Americans have been very, very patient. I think they are 
willing to put up with a lot at the airport, and I think they 
do. But they will not be fooled. They are not being fooled, and 
they are losing patience, and they are getting angry.
    And I would just like to leave you with the words--to me 
the most important words of the 9/11 Commission report, and 
that is that what failed us on 9/11 was a failure of 
imagination. I would ask you to remember my brother's words, 
and I would ask you to listen to the flight crews. They 
understand this better than anyone.
    Mr. Lungren of California. Thank you, Ms. Burlingame.
    [The statement of Ms. Burlingame follows:]

                 Prepared Statement of Debra Burlingame

    Chairman Lungren, Ranking Member Sanchez, distinguished members of 
the Homeland Security subcommittee:
    I am honored to appear before you today to discuss the 
Transportation Security Administration's proposed screening of 
commercial airline pilots. Thank you for requesting my views on this 
subject which is of great importance to the aviation community, the 
flying public and the American people. I am listed here on the panel as 
a member of 911 Families for a Secure America, but in truth, the 
qualification that has given me the greatest insight to the subject of 
today's hearing--and the one I prize the most--is that of sister. My 
brother was Captain Charles F. ``Chic'' Burlingame, III, pilot of 
American Airlines flight 77, which was crashed at the Pentagon on 
September 11, 2001. Chic was a pilot with American for 22 years. During 
his commercial career Chic was qualified on Boeing 757 and 767 aircraft 
and flew domestic and international routes. Prior to his career with 
American, he was an elite carrier-based fighter pilot for the United 
States Navy, serving a total of 25 years, combined active and reserve 
duty. Chic died the day before his 52nd birthday.
    While the devastating attack on our country three years and eight 
months ago was a horror for all Americans, those who work in the 
commercial aviation industry endured a particularly brutal experience. 
While most people watched the planes hit the buildings on September 
11th in a state of shock and disbelief, for flight crews, witnessing 
the summary executions of their fellow crew members and their helpless 
passengers was a deeply personal experience. These are people who love 
airplanes, who have spent their entire lives associated with aviation, 
many starting from they time they were children, dreaming of the joy of 
flight. To them, seeing an aircraft used as an instrument of mass 
destruction is a perversion which contradicts everything they know and 
all they have trained to do.
    I am grateful for the opportunity to commend them before members of 
Congress, for the incredible courage they exhibited in the days and 
weeks after they lost so many of their colleagues. They understood that 
the attacks on the World Trade Center, the Pentagon and the thwarted 
attack that ended in Shanksville, PA were attempts not simply to bring 
down airplanes and buildings. They knew that this was an full-out 
assault aimed at bringing down the United States economy. No one knows 
better than these aviation professionals how vital the airline industry 
is to our national and global economy. And so, with heavy hearts, they 
put on their uniforms, got back on their planes and, by their example, 
helped restore the confidence of the flying public in our commercial 
aviation system. As a former flight attendant, and above all, as Chic's 
sister, I cannot tell you how much it meant to his family to see those 
jets back in the air.
    I think all would agree that September 11th changed the world 
forever, but again, no group of individuals feels those changes more 
acutely than those who work in commercial aviation, and no single 
group, in my opinion, has a bigger stake in bringing about successful 
aviation security policies than the men and women who fly those planes 
every day. For this reason, I urge members of Congress and this 
committee to pay close attention to what they have to say. They are 
uniquely qualified to assist you in addressing aviation security 
issues; they are highly motivated, they are highly educated and they 
are extremely intelligent; they know the aircraft, they know the 
environment on the ground and in the air and their experience has given 
them an ability to cut through to the heart of any issue associated 
with their world.
    A short but to-the-point anecdote illustrates my point and will go 
right to the issue of whether the Transportation Security 
Administration should subject pilots to security screening.
    Prior to 9/11 it was routine for flight crews to by-pass security 
by displaying their airline-issued photo Ids and going directly to 
Operations. On this particular day, my brother was flying the tail end 
of a trip home to Dulles Airport from Los Angeles. He was accompanied 
by our brother, Brad, who obviously could not by-pass security, so 
Chic, in uniform and with his airline ID clipped to his lapel, stood in 
line and submitted to the same security procedures as everyone else, 
including putting his bag and crew kit through x-ray screening and 
walking through the magnetometer. After they were through, Chic shook 
his head and muttered under his breath. Brad picked up on it and asked, 
shouldn't Security screen air crews, too? It would be easy for them to 
secrete a weapon in their carry-on bags. Chic's reply was a tragic 
foreshadowing of the last flight he would ever know: ``I'm a pilot. I 
don't need a gun or a knife. I've got an airplane filled with 60,000 
pounds of jet fuel. Essentially, I'm flying a missile.''
    That was in 1999, two years before Chic's Boeing 757 was 
commandeered and used as a weapon of mass destruction in exactly the 
manner he presaged. It clearly illustrates what flight crews understood 
then and continue to believe now, that it is counter-intuitive and 
counter-productive to subject the most highly referenced, heavily back-
grounded and operationally visible employee group in the private 
sector, to airport security screenings. Pilots are photographed, 
finger-printed, and routinely monitored for competence. A large number 
are former military pilots with long records; some even continue to 
serve, as my brother did, in the military reserves. What does it say to 
the flying public, that the TSA is subjecting flight crews to x-ray 
screening, wanding them within minutes of handing them the controls of 
a potential lethal weapon?
    Meanwhile, the TSA continues to allow hourly-wage employees who are 
not subjected to background checks to by-pass security screening 
altogether. Non-secure, unskilled workers who are employed on airport 
perimeters, in secure areas of the ramp, or even on the airplanes 
themselves, carry unsearched, unscreened personal belongings such as 
backpacks with them to these secure areas.
    Over the last three years, ICE agents in Operation Tarmac have 
discovered nearly 6,000 unauthorized workers at airports and 
maintenance facilities around the country. They have arrested over 
1,000 undocumented workers, including a fugitive alien with an 
outstanding deportation order, and issued 775 criminal indictments.
    These facts suggest that the TSA lacks a fundamental understanding 
of the threat we continue to face. Even as we struggle to collate the 
databases which make up the so-called ``No fly'' lists consisting of 
the names of individuals identified by the FBI, State Department and 
the Intelligence community, the TSA continues to allow passengers to 
board airplanes by using Mexican Matricula Consular ID cards.
    As an member of the FBI's Office of Intelligence testified before 
the House Judiciary subcommittee nearly two years ago, these cards are 
aggressively marketed by the Mexican government for the sole purpose of 
providing undocumented foreign nationals with identity documents that 
can later serve as breeder documents for US-issued ID. They are not 
linked to any central database and therefore offer no means verifying 
the true identity of the holder. According the FBI, they are ``little 
more than simple, laminated cards without any security features.'' And 
they are widely available. Nevertheless the TSA continues to allow 
passengers to use them to board airplanes.
    No one appreciates the difficult challenges which the 
Transportation Security Administration faces as we forge ahead. But if 
I could leave this committee with one message, and one message only, it 
would be this: remember the words of Chic Burlingame. Listen to the 
flight crews. They want commercial aviation to thrive economically and 
they want it to be safe & secure. Their own lives and livelihoods 
depends on it.

    Mr. Lungren of California. The Chair now recognizes Captain 
Duane Woerth, President of the Air Line Pilots Association, to 
testify. And I guess, in accordance with TSA proceedings, a 
member of a suspect class.
    You have 5 minutes, Captain.

 STATEMENT OF CAPTAIN DUANE WOERTH, PRESIDENT, AIRLINE PILOTS 
                   ASSOCIATION, INTERNATIONAL

    Mr. Woerth. Thank you, Mr. Chairman. And I thank all the 
members for being here on a Friday and taking an interest in 
this.
    We represent 64,000 pilots of those 100,000 commercial 
airmen out there, and there is probably no subject that has 
gotten under their skin and angered them and frustrated them 
more than the subject matter of this hearing. So if I can get 
to the bottom line, it is patently ridiculous to run air crew--
including flight attendants, but especially airline pilots--
through the screening process we currently do. And the example, 
I think, was left at this table and mentioned earlier: This 
includes not just the fact that they can get behind the door 
and will fly the plane, but we even have armed pilots. And an 
armed pilot, an FFDO, the same person, the same day, maybe he 
is commuting home, he is strip-searched and they are looking 
for the same person's fingernail clippers. I mean, this is how 
absurd this has actually gotten. And I appreciate this 
committee's--I hope to get up and get some action changed.
    People understood right after the hysteria of 9/11 that 
some extraordinary measures were probably going to be taken, 
but they assumed 3-1/2 years later some common sense would have 
prevailed. And I am confident that Congress will insist that 
the TSA and the agency of the Department of Homeland Security 
will insert some common sense into our security.
    As Congressman DeFazio talked about--and I was with you, as 
were some of my predecessors--we were looking for electronic 
identification cards in the 1980s; in the 1980s we were 
pressing for electronic identification cards. In 1989, the FAA 
issued a final rule on airport security, starting the process 
for electronic and computerized identification cards. It just 
kind of petered out into nothing.
    In 1993 Congress appropriated millions of dollars to the 
development of what was called the universal access cards, 
computerized electronic identification for crew members, that 
we needed at every airport, not just the one we were working, 
because we worked everywhere. That just fizzled into nothing.
    There is a long stack of letters I could produce and 
congressional action, all predating 2001 and that tragedy by a 
long measure. It is time we start doing what we know we have 
needed to do for a very long time.
    I don't have as many ID cards as Ms. Burlingame has 
brought, but the card I have for Northwest Airlines today isn't 
a lot different than the one I got 30 years ago; with a little 
less hair, but other than that it is pretty much the same. It 
does the same function, hangs around my neck. Nobody can tell 
if it is me or not; it means nothing. We need electronic 
identification cards.
    As you know, the Transportation Worker Identification Card 
has been developed, it has been processed, it has been tested, 
it already works. Just like the Registered Traveler card that 
was referred to here, I got in that program, too. And it is 
amazing that I don't have one as an airline pilot, but as a 
Registered Traveler. I can give my electronic fingerprint, I 
can give a retinal scan. I have one as a passenger; I don't 
have one has a pilot.
    And everything that you mentioned, Mr. Chairman, all the 
other tests we have gone through for 30 years in my background, 
they know more about me than my mother knew. But I go through 
it, all my colleagues go through this every day.
    I think we can also learn from the past practices of other 
nations, as you are familiar with, particularly Europe, who has 
been dealing with terrorism for 20 and 30 years. I travel 
extensively out of the country. Airline pilots and flight 
attendants don't go through any of this kind of hassle factor 
and treatment any other place. The crew members go to the 
airplane. If they go through security at all, it is a special 
line, and it goes very quickly and off they go. I think we can 
adopt some commonsense strategies.
    And what I really believe is that it is going to require--
we are on our fourth director of the Transportation Security 
Administration, fourth time. And I think until the Congress 
asserts itself and demands action with timetables, we are going 
to continue to test and test, and try and experiment, and 
nothing is going be to implemented. So I am urging you to take 
control of this process. We have a TWIC card that has already 
been tested, it just needs somebody to have the courage to 
implement it and force its implementation.
    If I could get to a basic requirement, it goes to the 
fundamentals of approaching security differently. We need to 
focus on finding and removing bad people, not looking for every 
bad thing imaginable. Right now our security forces us to look 
for bad things. I don't care how many thousands of guns and 
knives and fingernail clippers--there is always a big story, 
all these things got through security. Who cares? They are in 
the possession of good people with no bad intent. So until we 
can focus on a system that looks for bad people and removes bad 
people in the system instead of treating every single passenger 
and pilot and flight attendant like a potential bin Laden, we 
are going to hopelessly bog down in frightfully billions of 
dollars in expenses, a frustrated Nation, a harmed economy. If 
we can get to a new philosophy of security screening that is 
common sense-based--I think the Congress, the people on this 
committee, and the other committees in the House and the Senate 
I have dealt with want to do that.
    And I thank you for your attention. You said my written 
statement can be entered. And I will conclude with that and 
take your questions when you are ready, sir.
    Mr. Lungren of California. Thank you very much, Captain.
    [The statement of Mr. Woerth follows:]

               Prepared Statement of Captain Duane Woerth

    Good morning. I am Duane Woerth, President of the Air Line Pilots 
Association, International. ALPA is the world's largest pilot union, 
representing more than 64,000 pilots who fly for 41 airlines in the 
U.S. and Canada.
    We applaud the Committee for holding this hearing and we especially 
appreciate Chairman Cox's interest in the subject of flight crew 
screening. I dare say that there is no other issue on which pilots are 
more unified than that of the need to replace physical screening with 
electronic identity verification and controlled access to airport 
secured areas for pilots, whose background and criminal history records 
have been checked. So, it will come as no surprise that our answer to 
the question of this hearing is an emphatic ``yes--the screening of 
airline pilots, as practiced by the TSA, and FAA before it, is a waste 
of scarce resources!'' But it's worse than that--the current security 
screening system virtually ignores the trustworthiness of airline 
pilots and instead focuses almost exclusively on a search for inanimate 
objects. Unless and until the system becomes human-centered, rather 
than weapon-centered, we will be more vulnerable to potential 
hijackings and other aircraft attacks than we have to be. Trained 
terrorists do not need weapons to perpetrate crimes aboard aircraft.
    My remarks, therefore, are intended to put the question of this 
Committee's hearing within the context of an analysis of the entire 
security screening system and demonstrate that we can achieve a much 
higher level of security at a lower cost by changing our fundamental 
assumptions and screening procedures.

Pre-September 11, 2001
    With the establishment of checkpoint screening in the 1970's, which 
came about as a direct result of ALPA lobbying efforts, the FAA 
required air carriers to provide passenger screening at our nation's 
airports. Since its inception, the focus of checkpoint screening in the 
U.S. has been to find objects which might threaten the security of an 
aircraft, its passengers and crew. Given the type of threat posed by 
``homesick Cubans'' in the 1960's and 1970's who had no desire to 
commit suicide and mass murder, this was a rational approach.
    Regrettably, in spite of numerous attacks on American interests in 
the 1980's and 1990's by anti-American fanatics, which included suicide 
attacks (e.g., the USS Cole), the federal regulators did not alter 
their passenger screening methodology. One exception to this was the 
Computer Assisted Passenger Pre-screening System (i.e., CAPPS I), which 
was developed by the FAA and used by the airlines to look for travel 
and threat pattern abnormalities.

Post-September 11, 2001
    Shortly after the events of September 11, 2001, the anti-hijack 
training procedures used by airline crews were drastically altered to 
counter our enemies' tactics. Now, pilots are trained to view any type 
of hijacking attempt as a potential suicide/mass murder scenario and to 
react decisively to confront and eliminate such a threat. However, 
although some progress has been made toward deploying a 
methodology(ies) for determining whether a passenger has hostile 
intent, the federal government has still not altered its security 
screening checkpoint system to reflect today's reality. As a result, 
security screeners are focused almost exclusively on a search for items 
which could be used as weapons and bombs, with insufficient 
consideration being given to the threat that an unarmed terrorist may 
pose. It should be noted that the government does operate a watch list, 
and while somewhat useful, it has several inherent weaknesses that make 
it incapable of keeping all terrorists off of commercial airplanes.
    Accordingly, there is now an even greater focus on finding 
inanimate objects than before 9/11. Small tools, fingernail files, 
scissors, pocket knives, knitting needles, matches and lighters--all 
have found their way onto government-mandated, prohibited-items lists. 
Ironically, the very same Federal Flight Deck Officer who is allowed on 
a Monday to carry a firearm through the screening checkpoint while in 
uniform, is not allowed to carry a fingernail file through on Tuesday, 
while deadheading out of uniform. It was reported recently that an 
armed FBI agent was required to surrender a nail file at the 
checkpoint--numerous other examples of such time-consuming 
inconsistency abound.
    The scrutiny of passengers that is required to identify such items 
results in long passenger lines, delays, partial disrobings, and 
harried passengers who prefer not to fly. Government reports are issued 
periodically on the vast numbers of items that are found and 
confiscated at screening checkpoints. Unfortunately, there is no 
logical connection that can be made between the number of items found 
and the number of attempted hijackings that were thwarted because, with 
very few exceptions, the individuals carrying such items had no hostile 
intent.
    The current fixation on finding weapons, to the virtual exclusion 
of determining a passenger's trustworthiness, is harming the industry's 
economic viability. Flying is no longer considered a positive 
experience by many, but rather, an ordeal that must be endured. The 
hassle factor has caused some passengers to find other means of 
transportation or to not travel at all. Because of these circumstances, 
airline travel is also devalued by the public, which is partly 
reflected in the carriers' inability to raise ticket prices to a 
profitable level.

Political Correctness and Unintended Consequences
    Americans pride themselves in their ability to look beyond 
individual or group differences and treat everyone equally. Although 
this philosophy is desirable in most situations, when it comes to 
trust, equality is not possible, not because of a person's skin color 
or ethnicity, but because of a person's demonstrated behaviors or 
government authorities' lack of knowledge of same. Airline pilots earn, 
and can document, a very high level of personal trustworthiness and 
integrity because the government and their airline carefully scrutinize 
them before being hired. Their integrity is under continual observation 
on an ongoing basis by their fellow crewmembers, medical practitioners, 
FAA inspectors, company personnel, and others. Unfortunately, that 
trust has not been acknowledged at the security-screening checkpoint 
for many years.
    The politically correct notion of treating everyone in the same way 
at the screening checkpoint is an ill-advised obstacle to 
implementation of a human-centered security system. Political 
correctness at the screening checkpoint has many unintended, and 
ultimately very expensive, consequences. Following are a few noteworthy 
examples:
        <bullet> It is driving away the airlines' best customers, 
        first- and business-class passengers, who are choosing to avoid 
        airline travel by increasingly flying on corporate and charter 
        aircraft. Airline travel makes no economic sense for highly 
        compensated individuals unless it actually saves them time; the 
        current paradigm makes it increasingly difficult for companies 
        to obtain such a benefit.
        <bullet> An environment has been created in which all 
        passengers are subjected to physical indignities and privacy 
        intrusions. Reducing the population of persons requiring such 
        treatment is clearly more needful from a security perspective, 
        and would actually realize the stated goals of privacy 
        advocates.
        <bullet> Long screening queues create large groups of 
        individuals outside of the ``sterile'' concourse, which fosters 
        a target-rich environment for those who would attack an 
        airport.
        <bullet> The screening system is less capable of keeping 
        terrorists off of airplanes than it could be if passenger 
        trustworthiness were determined.
        <bullet> Passenger confidence in the government screening 
        system is undermined when stories abound of demonstrably 
        harmless individuals who are given a great deal of unwarranted 
        physical scrutiny. Our members inform us regularly of privacy 
        invading screening experiences that are not in keeping with the 
        trust that they have earned.
        <bullet> It places a huge tax burden on an industry that is 
        struggling to survive. TSA spent $3.7 billion on aviation 
        security in FY 2004, which was more than necessary because no 
        accommodation is made at the screening checkpoint for those who 
        can be trusted. Those funds are extracted from airlines via 
        security taxes on each passenger ticket. Federal taxes and fees 
        constitute as much as 40 percent of a domestic roundtrip 
        ticket, more than consumers pay in federal consumption taxes on 
        alcohol, tobacco or gasoline. Our members have invested 
        billions in concessions so that their managements can restore a 
        healthy bottom line to our industry. But these efforts are 
        imperiled by ever increasing calls for additional security-
        related tax hikes on an industry that is teetering on the brink 
        of insolvency.
        <bullet> There are approximately 100,000 airline pilots in the 
        U.S. Assuming that each one flies 20 days per month, on 
        average, and they are screened only once per day, there will be 
        24 million pilot screenings annually. In 2004, one passenger 
        screening cost approximately $4.70, which means that the total 
        cost of screening pilots was about $112 million. These are 
        merely rough-order-of-magnitude numbers because there is no way 
        to determine the exact number of pilot screenings in a given 
        year. But they illustrate the fact that money is being wasted 
        on screening of pilots that could be used on genuinely needed 
        security enhancements, such as improvements to the Federal 
        Flight Deck Officer program, implementation of the 
        Transportation Worker Identification Card system, secondary 
        barriers, better cargo security measures, and fortified flight 
        deck doors for cargo airplanes.
        <bullet> It reduces available safety margins by disallowing 
        pilots to carry certain tools of the trade with them through 
        security checkpoints. These tools are needed in the event of an 
        inflight emergency, but have been restricted since shortly 
        after September 11.
    Screening methodologies designed to positively identify the 
trustworthy members of the traveling public greatly increase security 
and as added value, offer potential for reducing the frequency of 
physical privacy intrusions.
    Affirmation of this model exists in the U.S. as is demonstrated by 
the processing of armed law enforcement officers at screening 
checkpoints. Once their identities are verified and the legitimacy of 
their travel needs confirmed, they are subjected to no physical 
screening prior to boarding the aircraft. Its application should be 
adapted to include aviation workers, and modified to provide for more 
effective and efficient screening of a significant portion of the 
traveling public who have demonstrated a satisfactory level of trust.

An Effective Security Screening System
    The Israeli aviation security-screening model, widely regarded as 
the world's best, is human-centered and trust-based. Information is 
collected on passengers before they arrive at the airport and they are 
physically screened and queried in concert with that knowledge. Trained 
personnel assess individual characteristics that are indicative of 
deception and engage passengers in conversation and questioning to 
establish the purpose and authenticity of an individual's travel plans. 
Considerably less time and resources are spent on physically screening 
those who are deemed to be non-threat persons and traveling for 
legitimate purposes. The effectiveness of the Israeli model is touted 
around the world.
    By contrast, recent reports by government oversight organizations 
rate the effectiveness of U.S. aviation screening methods as deficient 
in a number of respects. According to congressional testimony by the 
GAO, ``TSA has not consistently implemented a risk management approach 
or conducted the systematic analysis needed to inform its decision-
making processes and to prioritize security improvements . . . A threat 
assessment identifies and evaluates potential threats on the basis of 
factors such as capabilities, intentions and past activities (emphasis 
added).'' \1\
---------------------------------------------------------------------------
    \1\ GAO Report 05-357T, February 15, 2005
---------------------------------------------------------------------------
    The current U.S. aviation screening system is built upon several 
flawed assumptions--one is that everyone poses a potential threat to 
aviation security. The truth is that the vast majority of individuals, 
including airline pilots, do not pose any kind of threat to aviation. 
Airline pilots, who are the most thoroughly scrutinized employees in 
the workforce, are highly trusted individuals, which fact is recognized 
everywhere, it seems, but at security screening checkpoints. A very 
small fraction of all passengers actually pose some degree of threat, 
but our screening resources are greatly diluted by giving the same 
degree of physical scrutiny to an Air Force Reserve general and airline 
pilot as is given to a federal prison parolee.
    Another erroneous assumption is that an individual does not pose a 
threat once they have been successfully screened for objects that could 
be used as weapons. Such a conclusion for much of the general 
population may be warranted, but it does not apply to a fanatically 
dedicated and highly trained, murderous terrorist. Physical screening, 
by itself, is incapable of keeping terrorists off of airplanes, because 
it is not designed to identify them.
    We conclude that a layered approach to aviation security screening 
is essential. For the same reason that airline safety is enhanced by 
having two or more professional pilots, two or more engines, and other 
redundancies, aviation security can be improved by examining each 
individual for hostile intent while keeping dangerous objects, 
especially improvised explosive devices, off of airplanes.
    A critical component to the success of a human-centered screening 
system is identifying trustworthy individuals and then removing, or 
lessening, the amount of scrutiny that they receive, so that unknown or 
suspicious individuals can receive much greater scrutiny. There are 
several initiatives in various stages of completion that could greatly 
assist the government in accomplishing this task. Transportation 
Workers Identification Card (TWIC)--The TWIC program is intended to 
positively identify trusted workers in all transportation modes. The 
program has been in development for nearly four years and is currently 
undergoing operational tests. Ironically, and in opposition to our 
expressed recommendations, there are no plans to test the program in a 
meaningful way in the commercial aviation environment. TSA has 
emphasized repeatedly that TWIC will be a voluntary program for the 
airlines and airports, so whether the program will actually be 
implemented remains a question, unless policy is created that will 
require its usage. If used for nothing else, TWIC card readers placed 
at screening checkpoints would remove trusted pilots and other aviation 
employees from screening queues and help passengers be processed more 
quickly.
    The TWIC program has been a major disappointment to ALPA because of 
false expectations that were created by government years ago about its 
pending usefulness in helping pilots get to their jobs in an expedited 
and secure fashion. It is our understanding that the program is being 
moved from TSA to a new DHS screening coordination and operations 
office later this year; we will continue to press for a TWIC program 
that meets our members' needs and we urge congressional support for 
this initiative.
<bullet> Registered Traveler (RT) Program--The Registered Traveler 
program is in prototype and has been successfully tested at a handful 
of airports. RT is designed to collect information from passengers who 
voluntarily sign up to be included in the program --I am one of those 
who signed up and I have used the program at National Airport. To date, 
the TSA has not indicated that any substantive advantage will be 
realized by passengers who choose to join RT, such as a less intrusive 
and trust-based screening process. ALPA is a strong proponent of RT as 
a means of allowing passengers to voluntarily divulge information about 
themselves so that their trustworthiness can be determined and used to 
maximum advantage.
    We cannot comprehend why this important and needed program has been 
allowed to languish, while our members and passengers continue to waste 
their valuable time in long lines at security checkpoints. We urge 
Congress to fully exercise its oversight role in this matter and cause 
RT to become a reality across the nation.
<bullet> Law Enforcement Officer Verification Card System (LEOVCS)--The 
law enforcement community, with TSA's assistance, has developed and is 
testing an electronic method of positively identifying authorized law 
enforcement officers at screening checkpoints. ALPA fully endorses 
LEOVCS and urges its rapid deployment at the conclusion of successful 
testing.
<bullet> Secure Flight--The CAPPS II system was attacked by privacy 
advocates, who expressed fears that the next generation of computerized 
pre-screening would be too invasive and held the potential for theft or 
misuse of personal information. TSA has revised its pre-screening model 
in an effort to address those concerns and created Secure Flight, which 
is to be introduced later this year. Secure Flight will be an 
improvement over CAPPS I, but it will not have the same positive effect 
on security that CAPPS II would have had by accessing information on a 
number of public and restricted databases. CAPPS II would have served 
as a form of pre-screening intended to separate known, trusted 
individuals from those not meeting that threshold. The unknowns would 
then have been subjected to closer scrutiny than those cleared by the 
system.
<bullet> Screening of Passengers by Observation Techniques (SPOT)--The 
SPOT system is currently employed at Boston's Logan International 
Airport and was developed by the Massachusetts State Police to identify 
and question those passengers traveling for illicit purposes. Trained 
observers look for signs of suspicious behavior and resolve issues with 
those who merit closer scrutiny. Observation, evaluation and response 
to human behavioral factors are keys to this system, which is intended 
to efficiently allocate additional screening resources to a small 
portion of the traveling public. ALPA endorses the concept of 
behavioral recognition as a means of determining the trustworthiness of 
certain passengers. Privacy advocates are suing the sponsors of this 
successful program.
<bullet> All government and industry employees who work in the aviation 
industry should be trained on how to act as the ``eyes and ears'' of 
security. Several years ago, ALPA participated in an Aviation Security 
Advisory Committee that developed a protocol for an employee security 
training program. The Security Team concept, as it was called, would 
enhance other security efforts at no, or very minimal, cost.
<bullet> The potential role of the public in protecting aviation should 
be recognized. New York City's Port Authority has implemented an 
effective campaign aimed at its citizenry, which uses the phrase, ``If 
you see something, say something.'' In a similar effort, Canadians have 
instituted an Airport Watch program, intended to utilize the eyes and 
ears of individuals who frequent the nation's air terminals and 
surrounding areas. This same philosophy should be employed in 
protecting the U.S. aviation domain.

Recommendations
    1. Law enforcement officers, airline pilots and others within the 
aviation industry whose trustworthiness has been firmly established by 
criminal history records checks, background investigations and other 
measures should be screened electronically at security checkpoints.
    2. The government should move quickly, with industry, to prototype, 
fine-tune, and deploy a human-centered security screening system that 
establishes a basis of trust as its principal component. Passengers 
meeting an established trust threshold should be expeditiously screened 
and allowed to proceed quickly to their gate.
    3. In order to help facilitate items one (1) and two (2), the 
government should expeditiously develop and deploy the TWIC, RT, 
LEOVCS, and Secure Flight programs.
    4. Airport law enforcement agencies should be encouraged to adopt a 
program for identifying suspicious passenger behaviors, as Massports' 
police have done via the SPOT program.
    5. All government and industry employees who work in aviation 
should be trained on how to act as the ``eyes and ears'' of security.
    6. Public education programs should be expanded to create an 
awareness that the general populace has a role in protecting aviation.
    Thank you for the opportunity to testify today.

    Mr. Lungren of California. The Chair now recognizes Ms. 
Candace Kolander, a flight attendant with Alaska Air, to 
testify.

     STATEMENT OF CANDACE KOLANDER, ASSOCIATION OF FLIGHT 
                        ATTENDANTS--CWA

    Ms. Kolander. Thank you, Congressman. My name is Candace 
Kolander, and I am the coordinator for the Air Safety, Health 
and Security Department at the Association of Flight 
Attendants, CWA. And I am a FAA-certified flight attendant with 
19 years' experience at Aloha Airlines.
    AFA is the world's largest flight attendant union; we 
represent more than 46,000 flight attendants at 21 airlines. 
And just so you know, there are a lot more than the flight 
attendants, the 46,000 flight attendants that we represent at 
AFA.
    I want to thank the subcommittee for holding this meeting 
which focuses on TSA's screening of airline pilots.
    I do understand that some members of the committee staff 
objected to having flight attendants having the opportunity to 
testify on this matter today, and that is a bit frustrating to 
us. It is imperative that flight attendants have a say on the 
subject of screening. Flight attendants are subjected to the 
security screening on a daily basis, and can therefore also 
attest to whether security screening is a sound practice or a 
waste of resources.
    With the exception of those pilots participating in the 
FFDO program, flight attendants are subject to the same level 
of screening and background checks as pilots; so in that 
respect, we are all the same here. Flight attendants are an 
integral part of the crew in terms of safety and security and 
an important component of the overall screening picture.
    Now, while there always will be a need for ongoing 
improvements regarding airport security screening 
effectiveness, I would actually like to begin by taking note of 
the progress that has been made in the aviation security 
screening in the nearly 4 years since the terrorist attacks of 
September 2001.
    Explosive detection systems have been installed at most 
U.S. commercial airports to provide capability to screen all 
checked baggage for explosives. TSA has also expanded screener 
training and developed performance measures and indicators for 
these screening systems. There has also been an improvement in 
the actual hands-on screening process itself.
    I would like to share with you now the perspective on 
flight attendants on the screening of airline crew.
    Following 9/11, we received numerous complaints from our 
flight attendant members regarding the new security screening 
procedures, improper touching, or long lines to get through 
screening. Now, although we have not been receiving as many 
complaints now as we did before, more still needs to be done. 
In a recent informal spot check that AFA did with flight 
attendants around the country, part of the frustration that 
came through loud and clear from our member flight attendants 
was that their treatment varies greatly from station to 
station. As one flight attendant reported, ``Most of the time I 
passed through without difficulty, but sometimes it seems as 
though certain individuals and/or stations have an agenda for 
harassing crew members.'' I might add that this particular 
flight attendant cited screening at Washington National as a 
particular problem.
    On a recent flight, he watched for 20 minutes as a screener 
leered at him while he took every piece of clothing out of his 
suitcase and spread it out on the search table, then removed 
every item from his flight bag in a similar fashion. He went on 
to say about once or twice a month he goes through some version 
of this treatment somewhere in the country.
    Now, while a large number of airports do have designated 
crew lines or procedures to help expedite movement of crew 
members to get to their flights, there are still a few airports 
that do not, which makes them particularly problematic. One 
flight attendant related her experience regarding the McCarran 
Airport in Las Vegas, which does not have a designated 
screening line for crew members at the D gate. United flight 
attendants based in Las Vegas must arrive at the airport 1 to 2 
hours ahead of their check-in time in order to stand in line 
for security screenings to enter their usual gates. Meanwhile, 
flight attendants at a checkpoint at another gate go through 
screening at an expedited lane, and TSA employees who arrive 
late are allowed to go to the head of the line while these 
flight attendants are left cooling their heels.
    We also hear from time to time about more egregious 
problems. For example, 6 months ago one of our flight 
attendants was subjected to a troubling groping examination by 
a female TSA screener in Lexington. The screener used the cup 
of her hand to cup the flight attendant's breasts and trace 
around their perimeter. This particular flight attendant had 
not caused the portal alarm to go off prior to being chosen for 
the hand search, and she felt very violated by this employee. 
These groping complaints used to be much more frequent though.
    In the post-9/11 environment, flight attendants are under 
increased scrutiny by airport security, and in some cases they 
found this screening to be excessive and unnecessary. As 
reported in a recent study, some feel it is unfair that they 
should receive more attention, given the fact that flight 
attendants have aviation security clearance, and because as one 
flight attendant pointed out, there has never been a flight 
attendant in the history of plane incidents who was involved in 
a problem that brought a plane down. One participant said that 
flight attendants are treated like criminals because we are the 
most public, while others walk through or never get checked.
    Now, I want to stress that these problems matter from a 
policy standpoint far beyond the obvious significant stressors 
these hassle and intimidation events cause for flight 
attendants simply trying to get to work on time. If screeners 
are devoting undue amounts of time examining flight attendants, 
that is time that could be better spent screening out true 
security threats. And if flight attendants aren't able to reach 
their workplaces--the airplane--on time, then their ability to 
perform their safety and security duties are compromised as 
well. Remember, flight attendants are responsible for 
performing preflight safety and security duties on the 
aircraft.
    So yes, while there are still some problems with the 
current screening procedures and practices, and it is terrible 
that flight attendants sometimes are harassed and singled out 
for extra screening, but at the same time, we understand and 
completely support the need for careful screening of every 
person entering the aircraft, including myself as a crew 
member. We are confident that there is a way to accommodate 
both the needs of the flight attendants to reach the planes in 
a timely manner, without excessive or intrusive screening 
experiences, and the need to ensure that every person entering 
every aircraft has been thoroughly screened. We will leave it 
up to the experts to come up with the exact solution, be that 
separate lanes to expedite screening of crew members, or some 
other fix.
    While the screening security practices are not perfect, 
they are certainly not a complete waste of resources. Let me 
just say that there is a need for TSA to devote serious 
resources to the development of a transportation workers 
identification credential that will promote expedited screening 
of those who most frequently must pass through airport 
security. This credential, as we have all noted, could include 
biometrics, such as fingerprints, to get flight attendants and 
others through quickly.
    We are not suggesting that physical screening be abandoned 
once such credential is developed; rather, that both credential 
and screening have a part to play in developing a layered 
security system that can protect against catastrophic attack. 
Such a layered security system has been recommended by the 9/11 
Commission staff as key to ensuring that the single point 
failure in the system is not catastrophic. Thank you, again.
    [The statement of Ms. Kolander follows:]

                 Prepared Statement of Candace Kolander

    I am Candace Kolander, Coordinator of the Air Safety, Health and 
Security Department at the Association of Flight Attendants-CWA and a 
FAA-certified flight attendant. AFA is the world's largest flight 
attendant union. We represent more than 40,000 flight attendants at 26 
airlines.
    I want to thank the Subcommittee for holding this hearing, and I'd 
like to begin by taking note of the progress that has been made in 
aviation security screening in the nearly four years since the 
terrorist attacks of September 2001. While there is an ongoing need to 
improve airport security screening effectiveness, there has been 
overall improvement since 9/11. Explosives detection systems have been 
installed at most U.S. commercial airports to provide the capability to 
screen all checked baggage for explosives. TSA also has expanded 
screener training and developed performance measures and indicators for 
the screening systems.\1\
---------------------------------------------------------------------------
    \1\ Transportation Security, Systematic Planning Needed to Optimize 
Resources, GAO-905-357T, Feb.15,2005.
---------------------------------------------------------------------------
    Certainly, however, more needs to be done. Today's hearing focuses 
on TSA's screening of airline crew, an important component of the 
overall screening picture. We understand that some members of the 
Committee staff objected to us having the opportunity to testify on 
this matter today. And that's a bit frustrating to us. We think it is 
only natural for flight attendants to have a say on this subject. 
Because, believe it or not, flight attendants are subject to the same 
level of screening and background checks as pilots, with the exception 
of those pilots participating in the FFDO program. So in that respect, 
we're all the same here. And I think it's important for everyone to 
remember that flight attendants are an integral part of the crew in 
terms of safety and security.
    Today, I'd like to share with you the perspective of flight 
attendants on the screening of airline crew, which turns out to be 
quite a significant stressor in their work environment. In the post-9-
11 environment, flight attendants are under increased scrutiny by 
airport security and in some cases they find this screening to be 
excessive and unnecessary. As reported in a recent study,\2\ some feel 
it is unfair that they should receive more attention, given the fact 
that flight attendants have aviation security clearance and because, as 
one flight attendant pointed out, ``there has never been a flight 
attendant in the history of plane incidents who was involved in a 
problem that brought a plane down.'' One participant said that flight 
attendants are ``treated like criminals because we are the most public, 
while others walk right through or never get checked.'' This increased 
attention has made it that much more difficult to get to work. Although 
there is a ``new empathy'' for the passenger caught up in lengthy 
airport security lines, allowances aren't made for this by some 
supervisors, and so they have feel under increased scrutiny by their 
company as well as airport security.
---------------------------------------------------------------------------
    \2\ Impact of the 9/11 Attack on Flight Attendants: A study of an 
Essential First Responder Group; U.S. Dept. of Health and Human 
Services funded study, 2003.
---------------------------------------------------------------------------
    In a recent informal spot check that AFA did with flight attendants 
around the country, part of the frustration that came through loud and 
clear from our member flight attendants was that their treatment varies 
greatly from station to station. As one flight attendant reported, 
``most of the time I pass through without difficulty--but sometimes it 
seems as though certain individuals and/or stations have an agenda for 
harassing crewmembers.'' I might add that this particular flight 
attendant cited screening at Washington National as a particular 
problem. On one recent flight, he watched for 20 minutes as the 
screener leered at him while taking every piece of clothing from his 
suitcase and spreading it out on the search table, then removing every 
item from his flight bag in a similar fashion. He went on to say that 
about once or twice a month he goes through some version of this 
treatment somewhere in the country.
    Another flight attendant related her experience at McCarran Airport 
in Las Vegas as particularly problematic. United flight attendants who 
are based in Las Vegas must arrive at the airport 1 to 2 hours or more 
ahead of their check-in time in order to stand in line for security 
screening to enter the gates. They have no designated screening line 
for crew there. TSA employees who arrive late are allowed to go to the 
head of the line for screening yet flight attendants who need to get to 
work are left cooling their heels.
    We also hear from time to time of more egregious problems. For 
example, about six months ago one of our flight attendants was 
subjected to a troubling groping examination by a female TSA screener 
in Lexington. The screener used the palms of her hands to cup the 
flight attendant's breasts and trace around their perimeter. This 
particular flight attendant had not caused the portal alarm to go off 
prior to being chosen for the hand search, and she felt very violated 
by this employee.
    Now, I want to stress that these problems matter from a policy 
standpoint far beyond the obvious hassle and intimidation factor for 
flight attendants simply trying to get to work on time. If screeners 
are devoting undue amounts of time to examining flight attendants, that 
is time that could be better spent screening out true security threats. 
And if flight attendants aren't able to reach their workplaces--the 
airplane--on time, then their ability to perform their safety and 
security duties is compromised as well. Remember, flight attendants are 
responsible for performing pre-flight safety and security duties on the 
plane.
    So, yes, there are problems with the current screening practices. 
It's terrible that flight attendants sometimes are harassed or singled 
out for extra screening. But at the same time, we understand and 
completely support the need for careful screening of every person 
entering the aircraft. And we are confident that there is a way to 
accommodate both the needs of flight attendants to reach planes in a 
timely manner and without excessive or intrusive screening experiences 
and the need to ensure that every person entering every aircraft has 
been thoroughly screened. We will leave it up to the experts to come up 
with the exact solution, be that separate lanes to expedite screening 
of flight crew or some other fix.
    But let me just suggest that there is a crying need for TSA to 
devote serious resources to the development of a transportation workers 
identification credential that will promote expedited screening of 
those who most frequently must pass through airport security. This 
credential could employ biometrics, such as fingerprints, to get flight 
attendants and others through quickly. We aren't suggesting that 
physical screening of flight attendants be abandoned once such a 
credential is developed, but rather that both have a part to play in 
developing a layered security system that can protect against 
catastrophic attack. Such a layered security system has been 
recommended by the 9-11 Commission Staff as key to ensuring that a 
single-point failure in the system is not catastrophic.
    I'd like also to take the opportunity to make mention of two other 
flight attendant priorities that we'd like to see receive much-needed 
attention from policymakers: the need for effective security training 
for flight attendants and the need for better avenues for communication 
aboard the aircraft among crew members.
    Although federal guidance on response to security threats aboard 
aircraft calls upon the cabin crew to protect the flight deck, stop any 
attempted hijack and protect lives in the passenger cabin, the current 
requirements for security training and equipment fail to provide the 
tools and training necessary for the flight attendant crew to carry out 
this mission.
    Flight Attendant crewmembers must have standardized security and 
self-defense training in order to prepare them for potential threat 
conditions. The training must be appropriate and effective, so that the 
flight attendants will be prepared to properly respond to any level of 
verbal or physical aggression encountered.
    Flight attendants are capable of learning and applying appropriate 
basic self-defense strategies and techniques if the program is science-
based and mandatory. They must all receive the same training, and work 
together as a team to immediately counter any apparent or potential 
threat. Civilians have been shown to be capable of learning basic self-
defense techniques in order to effectively respond to the types of 
threats faced by flight attendants.
    In order for this training to be appropriate and effective, it must 
include three major learning components.
    First, trainees must have classroom training for cognitive 
learning.
    Second, they must experience effective hands-on training for 
learning of the basic physical skills and integration of the cognitive 
material.
    Third, they must participate in live situational training exercises 
regarding the various threat levels to integrate the cognitive, 
physical, and emotional skills under a safe but appropriately stressful 
training environment.

The above training must include:
        (a). behavioral profiling to assist in identifying and coping 
        with potential aggression and
        (b). crew communication and coordination which is critical as 
        it relates to the survival of all crewmembers and passengers 
        and the overall control of the aircraft. Even with hardened 
        flightdeck doors, the Federal Flight Deck Officers program, and 
        the Federal Air Marshal program, all crewmembers must be 
        prepared to immediately respond during a terrorist attack. In 
        these situations a lag in response time due to poor 
        communications and coordination can prove just as fatal as it 
        did on September 11, 2001. Even with the heroic efforts of 
        those involved with Flight 93, this lag time proved fatal to 
        all persons on-board the aircraft.
    Flight attendants are the only true professional first responders 
in the cabin of every commercial airline flight (with over 19 seats). 
The self-defense training should include the appropriate manner in 
which to interact with both the Federal Air Marshals and Flight Deck 
Officers who are present on some flights.
    The training program should be developed, overseen and audited by a 
federal law enforcement agency which would determine appropriate 
curriculum and certification criteria for trainers as well as public or 
private regional and local training facilities across the country which 
would allow for decentralized training and collaterally benefit state 
and local economies. Training close to the homes and bases of the 
flight attendants and instructors will allow for the type of 1 to 2 
hour repeat training sessions necessary for it to be truly effective 
and would all but eliminate travel and lodging costs.
    Scientific testing should be conducted to determine and establish 
the minimum requirements for the basic course and recurrent training. 
These minimum requirements should include the qualifications for the 
primary and assistant instructors, the minimum teacher-student ratio, 
and the minimum requirements for the regional and local training 
facilities.
    To enable effective communication and coordination when suspicious 
activities or terrorist threats are in progress, discrete hands-free 
wireless communication devices to permit immediate communication 
between all crewmembers and Federal air marshals (FAMs), must be 
provided. Such a device would also facilitate discrete and timely 
communications from pilots to flight attendants regarding safety 
issues, such as more detailed turbulence warnings to help prevent 
injuries and reduce associated costs to industry.
    In order for flight attendants to learn and apply appropriately 
basic self-defense strategies, tactics, and techniques, they must all 
receive the same training and work together as a team to immediately 
counter any apparent or potential threat. In this way we can ensure 
that the next flight attendants and pilots that come face to face with 
committed terrorists have the ability to save themselves, their 
passengers, and the aircraft.

    Mr. Lungren of California. Thank you very much for your 
testimony. And I want to thank all the witnesses for their 
testimony.
    Before I proceed to questions, I would like to enter into 
the record a statement submitted by Mr. Marcus Flagg, aviation 
security expert, a graduate of the U.S. Naval Academy, and 
surviving son of Rear Admiral Wilson Flagg and Darlene Flagg, 
who were killed aboard American flight 77. And if there is no 
objection, it shall be entered into the record.
    [The information follows:]

  Prepared Statement for the Record from Mr. Marcus W. Flagg Aviation 
  Security Expert and surviving son of Rear Admiral Wilson Flagg and 
  Darlene Flagg killed aboard American Flight 77. September 11. 2001.

    Ladies and Gentlemen,
    My name is Marcus Flagg. I am a graduate of the U.S. Naval Academy 
and Naval Post-Graduate School for Aviation Safety. I have over 10 
years experience as a Navy fighter pilot and 9 years as a pilot for 
UPS, flying domestically and internationally.
    My parents, Rear Admiral Wilson F. Flagg and Darlene E. Flagg died 
aboard American Airlines flight #77 on September 11, 2001, when it was 
crashed into the Pentagon. My father was a Navy fighter pilot with over 
38 years active and reserve service and also an American Airlines 
Captain for 31 years. That tragic day irrevocably changed aviation, the 
world, my family and myself.
    I firmly believe there is the possibility of another terrorist 
hijacking aboard a commercial aircraft unless we are proactive in 
improving aviation security. Recent threat warnings and current 
terrorist probes indicate aviation is a near term probable target.
    Our nation, now more than ever, needs a robust multi-layered 
security system to combat the terrorist threat. The Arming Pilots 
Against Terrorism Act was passed almost unanimously by Congress and 
intended to be a deterrent to aviation terrorism by arming qualified 
pilots immediately.Nevertheless, the Transportation Security 
Administration has succeeded in arming only the smallest fraction of 
our pilots and has rejected and discouraged volunteers by the 
thousands. Professional airline pilots as a whole are highly educated 
and motivated individuals. The present program to arm our airline 
pilots being administered by the TSA is hampered by restrictions put in 
place at the behest of the airline lobby. Currently, Federal Flight 
Deck Officer's operate twice the flight coverage at 1/25 the cost of 
the Federal Air Marshal program. This program is the most cost 
effective security initiative to date and creates no additional cost to 
the private sector.
    The current restructuring of the TS provides the opportunity to 
move the FFDO and FAM programs to the FBI. The FBI's previous 
successful operation and management of an armed pilot program set the 
precedent with operation Switch. In September 2001, the FBI produced a 
cockpit protection plan, which would arm all commercial pilots 
immediately. Furthermore, the jurisdiction of crimes aboard aircraft 
and counter-terrorism also come under the FBI. This would allow for 
seamless integration of the programs, improved communication, and the 
most cost effective means to combat terrorism.
    Security screening of pilots and their luggage fails the common 
sense test as well as being a waste of assets and manpower. 
Professional passenger and all-cargo pilots have the responsibility and 
accountability to have their hands on the controls of a potential 
weapon of mass destruction; therefore, we do not need any weapons or 
explosives to takeover and crash a commercial aircraft. We are the most 
vetted professionals in any industry, yet we are treated as potential 
terrorists. We have been finger printed and had background checks prior 
to being hired, in addition to annual medical exams and flight 
standards checks. The majority of airline pilots have extensive 
military and/or law enforcement backgrounds. The original intent of the 
2002 FFDO law was to allow FFDO's to bypass security. In addition, 
passenger and all-cargo pilots would also bypass security so that 
potential terrorists would not be able to tell who was armed thereby 
enhancing deterrence of illegal actions. During the past year, the TSA 
and the FAA have approved Cockpit Access Security System (CASS) 
developed by the airlines for offline passenger and all-cargo pilots to 
occupy cockpit jumpseats. The Department of Justice developed a 
biometric PORTPASS for immigration several years ago. We continue to 
wait for TSA programs such as the Transportation Worker Identification 
Credential (TWIC) and Computer Assisted Passenger Prescreening System 
(CAPPS II).
    It has been well documented that prior to 9/11, the passenger and 
all-cargo carriers would rather pay the fines imposed by the FAA for 
security violations than to implement aviation security changes. The 
passenger and all-cargo carriers have done cost analysis assessments; 
they state it is less costly to lose an aircraft with crew, passengers 
and/or cargo than to implement new aviation security measures. As an 
all-cargo pilot, I emphatically endorse cargo inspection measures 
aboard passenger and all-cargo aircraft. Every individual, aircrew 
included, who travels aboard a commercial aircraft is screened along 
with their luggage, yet cargo remains unscreened for explosive, 
biological, chemical, nuclear or radiological hazards. The 9/11 
Commission called for cargo inspection for this very reason.
    Ladies and Gentlemen, I urge you to act immediately on these issues 
and the 9/11 Commission's Report concerning aviation security.

    Mr. Lungren of California. I recognize myself for 5 minutes 
of questions.
    And Captain Woerth, you have indicated that you have 
traveled extensively overseas. In your written testimony you 
make specific reference to the Israelis' aviation security 
screening model. Could you tell me how they deal with pilots 
and how they deal with crews?
    Mr. Woerth. Yes, sir. In Israel, they go straight to the 
airplane; they don't go through any lines, they go straight to 
the airplane. Everybody knows who the crew is, they check in, 
they are identified as the crew, and they proceed directly to 
the airplane.
    I have also traveled to Israel as a passenger, and, there 
again, they have people who interview and look at the different 
passengers. When I last went to Israel, I was subjected to 
quite a few questions, as I should have been, based on my 
passport and my extensive travel, including Egypt and back to 
Germany a number of times. So it made sense. But they work--in 
a matter of a minute they will determine all my travel made 
sense, and I wasn't a threat, and I went on my way.
    But their system is what I described. They are looking not 
for things, they are not worried about your fingernail 
clippers, they are not worried about your tweezers, they don't 
make people unpack their clothes; they identify a threat in 
terms of a person, and that is the key difference there, sir.
    Mr. Lungren of California. I want to specifically go back 
to the question on how they deal with pilots and the rest of 
the crew. The pilots they allow just to go through, once you 
are identified; once they are able to identify you through 
whatever means you have, then you go directly to--.
    Mr. Woerth. Well, once the crew is identified as an LL 
pilot and LL flight attendant, they go straight to the 
airplane.
    Mr. Lungren of California. You also mention in your 
testimony some concern about the flying public, some concern 
about the economic repercussions of the screening that takes 
place, long passenger lines, delays, and I think you even said 
partial disrobing and so forth.
    Recognizing that we have to have some security, recognizing 
there is going to be some inconvenience involved, are you 
suggesting that that is a necessary result of that; or are you 
suggesting that the manner in which it is done now 
unnecessarily inconveniences members of the flying public such 
that in your opinion, either from observation or conversations 
you have had, we are dissuading some people from continuing to 
fly?
    Mr. Woerth. To answer, sir, the last part of your question, 
first, I am absolutely convinced we have dissuaded a lot of 
people from flying; in particular, business travelers. Business 
travelers have decided--the richer customers use their own 
corporate jets and/or find other means of transportation.
    And the short-haul flying, the communities with small 
cities and small distances, is not funny to me; but the saying, 
``If you have got time to spare, go by air,'' that has had a 
real impact in the world, because if it is faster to drive to 
Richmond or anyplace else than to fly--and you can take any 
part of the country--that is what they will do. And they don't 
want to have to go through the hassle, they want to take their 
things with them.
    And it is so irregular from airplane to airplane. One day 
you will show up and the line, you got through there pretty 
fast and you think you are good to go; and then you show up and 
it goes outside the building again, and nobody can explain why 
it is different. So I think we have had a very significant 
impact on the hassle factor.
    I do think--and as my other witnesses, I do not think we 
are going to eliminate a screening system, I don't think--
nobody is suggesting that. But right now it is unreasonable, 
and they treat every single person the same. People aren't 
taking their shoes off in Europe; they can look at your shoes. 
But every single person, every person take off your shoes is 
ridiculous.
    Mr. Lungren of California. Well, the position of TSA is 
that is not a requirement.
    Mr. Woerth. Right. It is not a requirement until you don't, 
and then you get wanded instead. And every passenger knows what 
the results of not complying with the request from every TSA 
person is. That means you are going to be subjected to taking 
all your clothes out of your suitcase. So everybody takes off 
their shoes.
    Mr. Lungren of California. Let me ask all three of you, 
there are various programs, the TWIC program, the Registered 
Traveler program, the Secured Flight program, et cetera, based 
on the knowledge that you have of those various programs, if we 
were to establish a priority for TSA, what would your priority 
be? That is, which of the programs do you think we ought to 
move the most quickly on, Ms. Kolander?
    Ms. Kolander. AFA believes that we should move forward with 
the TWIC program as a priority.
    Mr. Lungren of California. Captain.
    Mr. Woerth. I would absolutely agree with that. With all 
the criminal background checks and everything, we have already 
mentioned that the crews are ready to go, and I think we ought 
to move forward with the TWIC program first.
    Mr. Lungren of California. Ms. Burlingame.
    Ms. Burlingame. I completely agree.
    Mr. Lungren of California. The Chairman recognizes the 
gentleman from Oregon.
    Mr. DeFazio. I wish that we had representatives of the TSA 
here today to explain the ongoing delay in the TWIC program and 
the ongoing reluctance to expand the trusted traveler program.
    Captain Woerth, since you have familiarity with the trusted 
traveler program, that as I guess a patron of American Airlines 
out of National, you are allowed to purchase--get one of those 
cards, do you think that that technology could be utilized for 
the TWIC program?
    Mr. Woerth. Absolutely, sir. As soon as you touch the 
screen, your face pops up instantaneously, or the retinal scan. 
In fact, if it is located by the gate, the trouble is--I don't 
use it either. It is not anywhere near the gate. It is 
inconvenient to go get it and get verified. If these things are 
going to work, it needs to be by as you go through security, 
touch the screen, your face pops up. You can walk through as 
fast as you can go through a turnstile.
    So I think--and I think we should use the same technology. 
I am concerned they are going to have a different thing for 
registered travelers as for crew members. We will have an empty 
line for crew members or an empty line for passengers, and we 
will have wasted resources. I don't know why we can't just use 
the same technology, sir.
    Mr. DeFazio. Okay. I share your bemusement on that issue 
and have no idea why they are spending years sorting through, 
trying to recreate or otherwise decide on what parameters they 
want to use or what kind of technology and biometrics. I mean, 
this is being used in the nuclear industry, it is being used at 
other secure installations in the United States, even in the 
private sector.
    Just a little bit on your observation about--I mean, a 
major concern on aviation, although a tangential concern to 
this committee since our principal focus is security, is the 
impact of security on the economics of the industry and the 
potential that we are going to lose one or another of our major 
network or legacy carriers, as we call them today. Again, would 
you just expand a little bit? Because I have observed the same 
thing. It seems that the airlines, particularly as you 
mentioned, short-haul flights, people figure, hey, if I am 
going to be standing in that line I might as well just drive. 
And I have also observed, you know, I have talked to people at 
my home airport and they say, yeah, we don't know what happened 
to all those United 1-K passengers, they kind of just 
disappeared. Can you just comment on the impact on the industry 
of the fact that we don't have Registered Traveler available to 
expedite their movement?
    Mr. Woerth. Yes, sir. I think that is probably the biggest 
change in the demographic of the traveling public, is the more 
leisure travelers, because the air fares have gotten so cheap 
to attract the travel back since 2001. It is now more people 
flying than before then but at cheaper fares than before then. 
The revenue is like 15 billion a year less with more people 
flying than 3 or 4 years ago. And a lot of that revenue less is 
again a higher percentage of leisure travelers. The business 
person has decided, for the best use of their time, they can't 
get the chance of getting stuck in security lines or having all 
that time wasted in having to get to the airplane an hour and a 
half early, they have made their other arrangements. And 
because of that, it has directly affected the economic health, 
particularly of the legacy carriers, if you will, the large 
passenger network carriers who have a wide amount of different 
kind of airplanes who serve the small community. It is not just 
the 60 largest communities that a Southwest or JetBlue might 
serve, it is the 429 other airports that I think are being 
impacted the most. I think small communities have been affected 
to a much larger degree than certainly Chicago or Los Angeles.
    Mr. DeFazio. It is my understanding that somewhere around 8 
percent of the people who fly constitute 24 percent or 25 
percent of the passenger load. That is, frequent business 
travelers constitute essentially a quarter of the passenger 
load; yet they are less than 10 percent of the actual, of the 
individuals who fly. And it has always seemed to me that if we 
could put those people through a system such as you have 
subscribed to, that that would allow the TSA to focus on the 
other unknown 75 percent of the people with whatever technology 
they are applying.
    Ms. Kolander, you did mention in your written testimony 
about flight attendant training. You know, we have had on the 
Aviation Committee, and I think it would probably be new to 
this committee, an ongoing concern about the lack of rigorous 
and uniform training for flight attendants. Could you give us 
and give the committee sort of an introduction and update on 
that?
    Ms. Kolander. Certainly. Thank you. The Association of 
Flight Attendants still believes that one of the major concerns 
out there is that we still do not have effective training to 
prepare our flight attendant members to respond effectively and 
proficiently to an aircraft security incident. We do believe 
that the training that we are currently receiving regarding 
security training is inadequate to help us address these 
situations. We still see varying from carrier to carrier, and 
one of our other biggest concerns is that we are not being 
trained necessarily as a coordinated team. We do believe that, 
in order to respond effectively and efficiently to a security 
incident, you have to train as a team. We need to know exactly 
what is going to happen in the flight deck, what is going to 
happen when we have Federal air marshals on board. Part of that 
is a crew resource management approach, but overall we still 
believe that there needs to be standardized security training 
to help members respond to threat conditions, and right now we 
still believe that that is not being effectively done at most 
of the carriers.
    Mr. DeFazio. Do we still have some carriers still showing 
the 2-hour video and that is it?
    Ms. Kolander. We do have some carriers that are still 
showing the video, and we have tried to work with carriers to 
ensure that the minimal amount of time is actually being 
applied. We actually had a situation just recently where the 
flight attendant said that the allotted time for the security 
training was actually shortened because the instructor wanted 
to make sure that they got to lunch on time. So they cut the 
security training in half and sent them out to lunch. So those 
are still some of the concerns we are seeing out there.
    Mr. DeFazio. Thank you. It doesn't sound like our scrutiny 
and continued efforts in those areas have had the impact that 
we wanted. And I will--and I expect this committee will now 
pick up that banner, and we will try and get the airlines to do 
what is right by the flight attendants.
    Ms. Kolander. Thank you.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Lungren of California. The Chair recognizes Chairman 
Cox for 5 minutes.
    Mr. Cox. Thank you very much, Mr. Chairman. Thanks again to 
our witnesses.
    Captain Woerth, I think one of the things that you said has 
got us focused exactly where we need to be, and that is we need 
to be looking for terrorists. We need to be remembering what 
this is all about. It is not an exercise, it is not an end in 
itself. There is a purpose to all of this, and so we have to 
constantly question whether what we are doing is leading us to 
that objective. And between the two of you, Captain Woerth and 
Ms. Burlingame, I think you have drawn our attention to an 
aspect of this problem that is truly scandalous. That is that 
not only are these IDs that you showed us, Ms. Burlingame, 
which you obtained overnight off the street--I have to say they 
look quite nice. They are very fancy and official looking. Not 
only are these things in use at our airports, but also, Captain 
Woerth, the pilot's ID that you have you basically described as 
worthless. It is 30-year-old technology, which is to say there 
is nothing biometric in it. It is hanging around your neck so 
people aren't really closely looking to see whether that is 
you. And so the one instance that we are trying to guard 
against that we know of--maybe there is another and you can 
tell me, and that is that it is not that we don't trust the 
pilots, but that this person might be pretending to be a pilot 
could occur at an airplane. Nothing that we do in the screening 
process protects us against that anyway. So it isn't a question 
of having too much security; it is a question of having too 
much wasted effort. We have got all these people standing in 
line at enormous cost to the taxpayer, to travelers, to the 
industry, and so on, and it is a great distraction. It is not 
related to the object at hand.
    I want to ask you, Ms. Burlingame, whether you know of 
anyone who has actually traveled on one of these cards.
    Ms. Burlingame. Yes, I do. In fact, I--.
    Mr. Cox. What happens when you show this at the airplane?
    Ms. Burlingame. Well, actually, I drove down. For some of 
the reasons that Captain Woerth was just describing, I drove 
here instead of flew. But if I had flown, I was going to give 
it a go. And not because I wasn't afraid that they would be 
taken, but because it is against the law to use a counterfeit 
ID.
    Mr. Cox. Well, we are glad that you didn't have to break 
the law.
    Ms. Burlingame. But you know what? I was tempted to 
basically just to--because it would have been I guess a bit of 
publicity to the cause. And I understand that the Mexican 
government has threatened legal action against Peter Gadiel, 
who is the president of our group. Peter lost his son at Ground 
Zero on September 11th. And the interesting thing is that the 
Mexican government would have a hard time proving that in fact 
I wasn't born in Mexico, because they have no database to prove 
that I wasn't born in Chihuahua, Mexico, which it says on that 
card. And they would have a very, very difficult time. They 
can't prove the actual identity of anybody who had these cards, 
including the ones that they issue, because it is known that 
the birth certificates that are used as the source document are 
also counterfeited. And when the consulates, the mobile 
consulates show up, they show up with a pack of blank birth 
certificates that they fill in. I mean, it is that sketchy.
    And so, in answer to your question, yes, I called a 
gentleman who is involved in this movement. He has one of these 
cards. His card is, by the way, identical to the ones that I 
have shown you in terms of technology, and he only uses that to 
fly in every airplane that he goes into.
    Mr. Cox. And does he ever get set aside for secondary 
screening because he is using that?
    Ms. Burlingame. No. And in fact, I said, are they aware 
that you are using the matricula consular card? He said: I make 
sure they know. I point it out to them: I have here a Mexican 
matricula consular card. Do you accept this as ID? Yes, we do.
    Mr. Cox. Obviously, Captain Woerth, what we need to do--and 
Ms. Kolander, what we need to do is get you real IDs. Now, the 
Real ID Act was signed into law yesterday, I note, by President 
Bush. But that is going to be quite some time in the making, 
and those are ultimately going to be optional programs with 
every State. And we need to fix this problem right away. The 
TWIC program, which we have mentioned, is designed to give you 
a biometric identifier that you as pilot and crew can use to 
get to that airplane.
    We are going to have the TSA up of course, and this is 
preparatory for more hearings on this topic, but you can tell 
us usefully today what you understand from the Federal 
Government and specifically from TSA is the schedule for your 
being able to use TWIC ID. Do either of you have any idea?
    Mr. Woerth. It seems to be this slipping deadline. And when 
it first started out, the development would be 6 months; after 
6 months of testing we would go to implementation. And I am 
still seeing information that now they need more time. I have 
heard it has been tested and ready to go. I have heard 
different things: One, we just need authorization, or they need 
an allocation of funds, or they need somebody to make the 
decision for them that is it all going to be voluntary at the 
airports and airline, or is it going to be mandated? And so I 
can't say with any certainty whatever that there is--I have any 
idea when this actually might be.
    Mr. Cox. So it sounds as if somebody needs to make some 
decisions here.
    Mr. Woerth. I think somebody has got to make the decision 
for them to give them a schedule and a time line and pull the 
trigger.
    Mr. Cox. Now, can you help us imagine--and, Mr. Chairman, I 
am happy to ask my questions on a second round and yield now.
    Mr. DeFazio. No. I just wanted to ask the Chair if he would 
yield on that point for a second.
    Mr. Cox. Of course.
    Mr. DeFazio. I would hope that either this subcommittee or 
the full committee would bring in responsible Federal officials 
from TSA or other agencies to both examine the ongoing delay, 
which we have had them in probably 6 months ago into aviation, 
on the TWIC card; the resistance to expanding Registered 
Traveler; and third, to give us a full understanding of what 
range of identification they are accepting. Because this is 
news to me that one of these cards is allowed to board an 
airplane. You know, it was driver's licenses. I thought foreign 
nationals who didn't have U.S. driver's licenses or other 
official ID were having to use passports.
    So I would like to actually have the committee fully grasp 
what is allowable out there, because, just like Ms. Burlingame, 
Mr. Mica famously before one of our hearings had his staff go 
on line and obtain a bunch of phony identification that was 
driver's license based that could have been used at airports, 
let alone something that isn't even based in our U.S. driver's 
license system.
    Ms. Burlingame. If I may respond.
    Mr. Lungren of California. If the Chairman would yield for 
just a moment.
    Mr. Cox. I would be pleased to yield.
    Mr. Lungren of California. In response to the gentleman's 
inquiry, we do intend to have TSA here. We think it important, 
though, that the people who are in the public and those who are 
representing those who have special positions here, the airline 
pilots, the attendants, I think it is important for us to find 
out what their understanding is, because government has an 
obligation, it seems to me, to be as clear as possible and to 
give as best guidance as possible. And here we have two people 
representing two of the major actors in this whole arena, and 
it obviously reveals itself to be befuddlement, to say the 
least. And so I think it is helpful for us to get the 
impressions that they have, and then we will have TSA here to 
give us their understanding. And I know Ms. Burlingame wanted 
to say something.
    Ms. Burlingame. I just want you to know that we tried to 
actually get the answer to that question on these consular 
cards from the TSA itself, and they made it very, very 
difficult for us. In other words, we couldn't get a yes or no. 
We simply wanted to know: Are these cards acceptable or not? 
And I guess the answer was kind of a run around. I could send 
you the e-mails that we got back and forth. And ultimately it 
was almost like, yes, they were admitting that we accept them. 
And then, you know, I did more research, and I found out that, 
yes, they are accepted everywhere. And people are using them 
everywhere, and they are using the counterfeit ones. And so 
that is very disconcerting. The counterfeit ones are pretty 
good. So I think a determined terrorist could probably get an 
authentic one. And, again, when I say authentic, I use that 
term loosely because they have really no security features that 
can be sourced in any way at the airports.
    Mr. Cox. Well, Mr. Chairman, at this juncture we have 
before us a half dozen of these forged matricula consular IDs 
with the photographs of members of this committee and others on 
them. I would ask unanimous consent that digital copies of 
these be entered into the record.
    Mr. Lungren of California. Without objection, they shall be 
entered in the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3034.001
    
    Mr. DeFazio. Mr. Chairman, could I make a request at this 
point, too, regarding that?
    Mr. Lungren of California. Sure.
    Mr. DeFazio. I would request that, given the frustration 
that Ms. Burlingame encountered, that prior to scheduling a 
hearing with TSA, that the committee ask of the TSA to give us 
a full list of what forms of identification they are officially 
recognizing and accepting. That would certainly include the 
questions here, and there may be others that we are not aware 
of.
    Mr. Cox. I suppose I still have the time.
    Mr. Lungren of California. Yes.
    Mr. Cox. I think that is an outstanding suggestion, and it 
is something that every member of this committee is interested 
in having the answer to. So that would be wonderful preparatory 
information for our next hearing.
    But back to this line of questioning about biometric 
identification, TWIC card in specific, perhaps Registered 
Traveler and TWIC converging. Can you imagine with the airports 
that you are familiar with, and your normal course through the 
airplane to the aircraft, how it might work if we had a sturdy 
biometric form of identification that you might go to the 
airplane separate from standing in these lines, Captain Woerth?
    Mr. Woerth. Yes, sir. I can envision a system where with a 
machine no different than the one I use for the Registered 
Traveler, where you can either do it a number of ways: You can 
swipe your card, I can touch my fingerprint, or they look at my 
retinal scan. A lot of these vendors today, sir, on one card 
can print five different ways to do the same thing. So if an 
airplane wanted to do a retinal scan, fine. If they wanted to 
do a fingerprint, fine. If they want to have magnetic tape 
information in a chip in the back. There is five or six things 
they can do on one card.
    Mr. Cox. Could you envision letting yourself in, 
essentially, through a separate locked door that you open with 
your fingerprint?
    Mr. Woerth. No, I don't envision that. I think somebody--
because what I think the key factor is, I think, when all those 
chips, when you slide your card or you touch your 
fingerprint--.
    Mr. Cox. Well, sliding your card obviously wouldn't make 
any sense at all. It has got to be you. It has got to take your 
biometrics if it is going to work.
    Mr. Woerth. Right. And make that work. But what comes up 
like on a Registered Traveler system right now is a life-sized 
head shot right beside your head. So on the computer screen, 
and so when I touch my fingerprint or my scan, what come up on 
the screen that somebody else--a security person could verify 
this. But we could go through so fast. As soon as they see us 
go through the line, you know, and not taking off our shoes, 
not emptying our bags, they would know electronically, 
biometrically it was me. It is not at all a tiny picture me; it 
is a life-sized picture like me on a computer screen. And I 
think we could go through that screen as fast as we can walk 
through there, almost like a turnstile. It wouldn't take any 
time at all.
    Mr. Cox. Now, the trouble with converging then TWIC and 
Registered Traveler is that after you give your biometric in 
the Registered Traveler program, which I am sure you have used, 
you still have to go through the magnetometer. You know, you 
get in the front of the line, but you still go through all of 
that. And I take it what you have in mind a la Israel is that 
once we have identified that you are you, you get to go to your 
airplane.
    Mr. Woerth. My belief is that crew members could do that. 
But if it's--for everybody's comfort, if they are going to 
throw more roadblocks in front of us to at least throw our bags 
through the line, I am fine with that. I just don't want to 
have to take off my shoes, take off my hat, take off my belt 
and dump everything out. I am not troubled by running my flight 
bag and my suitcase through a machine. I am troubled about even 
after they know who I am taking all of my equipment out and 
taking my shoes off.
    Mr. Cox. Mr. Chairman, I would yield at this point. I know 
we have additional members here.
    Mr. Lungren of California. I know the gentleman from 
Washington has just arrived.
    Mr. Dicks. I am not ready yet to ask any questions, Mr. 
Chairman. I am glad you had the hearing, and it is an important 
subject. I would like to put my statement in the record.
    Mr. Lungren of California. Your statement will be entered 
in the record.
    [The statement of Mr. Dicks follows:]

    Prepared Remarks for the Record by the Honorable Norm Dicks, a 
        Representative in Congress From the States of Washington

    Thank you, Mr. Chairman.
    I would like to join with you to welcome our panel this morning. 
Captain Woerth and Ms. Kolander, we appreciate your testimony and the 
insights you are able to provide after years of experience keeping us 
safe in the skies. Ms. Burlingame, we deeply sympathize with the loss 
of your brother on September 11th, and I want to commend you for your 
courage in responding to that tragedy by working hard to try and fix 
some of the problems that allowed that terrorist attack to happen.
    Chairman Lungren and I represent districts on the west coast, and 
we log tens of thousands of miles in the air every year. So we are both 
about as familiar with the airport screening process as anyone outside 
of the airline industry could be.
    Almost four years after September 11th, serious gaps remain in the 
system that TSA has implemented. To date, the focus has been in the 
physical screening of people and baggage for weapons and seemingly 
benign items that could be dangerous in the enclosed environment of a 
commercial aircraft. But reports by GAO, the DHS Inspector General, and 
others show that the effectiveness of these efforts is limited.
    This can be fixed by better training and oversight. And the 
implementation of new technology will play a critical role. That is why 
I strongly support the deployment of in-line explosive detection 
equipment to our domestic airports. And we need to aggressively pursue 
better technology to screen passengers for explosives.
    But even with improvements in technology and methods, the 
mechanical screening of passengers and baggage will continue to be a 
comparatively slow and cumbersome process.
    Under the direction of Congress, I understand that TSA is working 
on some programs that will help to expedite the process of passenger 
screening. Secure Flight, the Registered Traveler program, and the 
Transportation Worker Identification Credential--when implemented--
should help to address some of the weaknesses.
    But on each of these programs, TSA is running well behind schedule 
and has been very slow in reporting back to Congress. In the Department 
of Homeland Security Appropriations bill we will consider next week on 
the House floor, serious cuts and severe restrictions are imposed on 
these programs because of TSA's failure to get the job done. These are 
very serious issues of themselves, and I hope the Subcommittee will dig 
more deeply into this issue at a later date.
    Having reviewed your testimony, I understand that these lagging 
programs are having a very serious effect on the two groups of people 
that we most trust to keep us safe during every flight--pilots and 
flight attendants. I look forward to hearing from you in more detail as 
to how we can address this problem from your perspective.
    I would like to pause one moment to note that I am concerned a bit 
with the title of today's hearing, ``The Transportation Security 
Administration's Screening of Airline Pilots: Sound Security Practice 
or Waste of Scarce Resources?''
    I am perplexed as to why we would limit the scope of this inquiry 
to just pilots. It is my understanding that, with the exception of 
Federal Flight Deck Officers, pilots and flight attendants undergo the 
same extensive background checks and screening. If the purpose of this 
hearing is to find ways to save resources without reducing security, 
shouldn't we look at both groups?
    Mr. Chairman, I am glad you have called this hearing, and I am 
eager to hear the testimony of our panel.

    Mr. Lungren of California. It seems to me, Captain, that 
the major impact of your testimony is that we need to do more 
in identifying the person rather than fingernail clippers, for 
instance, that somehow would make more sense than what we are 
doing now. Let me ask you a generic question, which is, can you 
tell me whether or not the members of your organization feel 
that we have had some success with the additional screening, 
the additional security measures that we have taken post-9/11? 
That is, does your membership, members of your organization, 
feel safer today in terms of the people that are on the 
airplane than they did before 9/11?
    Mr. Woerth. I think the fair answer to that is they think 
there has been an improvement in the system that was in place 
prior to 2001, which was at wide variance from airplane to 
airplane. The quality of the screening, as you remember, before 
that, we had 400 percent turnover in some of the personnel in 
those days. And I think they recognize it was a pretty 
haphazard process. So they think it is a more thorough 
screening. But I think that the risk reward, without focusing 
on the right risks, the expense, and the hassle factor of it to 
the economy, to the crew members, to the airlines, and to the 
public, is far in excess of the incremental benefit that they 
got. The cost of it has just been extraordinary for a very 
little gain.
    Mr. Lungren of California. Let me ask one more question on 
that. And that is, some Members of Congress have voiced the 
opinion that if we had another attempt to hijack an aircraft, 
that the flying public wouldn't respond the same way. That is, 
we had been trained before that if you had a hijacked aircraft, 
be calm, don't do anything; they would make certain demands, 
fly you someplace you may not want to fly, you would be captive 
for a certain period of time but you would get out; as opposed 
to you would be part of a flying missile. And the opinion has 
been expressed that the American public now is not going to sit 
down this time around, and that plane may go down but they will 
fight to make sure it doesn't become a missile.
    Number one, do you share that opinion? And, if so, what 
does that say to you about the manner in which we should be 
dealing with security then? In other words, it strikes me that 
it would not be as important if someone has got a fingernail 
file as to spending more time trying to identify who the people 
are, as you subscribe.
    Mr. Woerth. First of all, sir, I do agree that the public 
themselves, the passengers, by United Flight 93, by the 
Pennsylvania flight, the learning curve had already gone up of 
the traveling public to do something. And so I am absolutely 
convinced--and there is all sorts of anecdotal evidence--that 
just on the flights of--to Washington National, if somebody 
accidentally forgets about the 30-minute rule and stands up, 
four people are grabbing their shirttails and pulling them back 
in their seat right away.
    So I think the traveling public will not sit idly by if 
they think there is anything going on on this airplane that 
would attempt a takeover. They would react very quickly.
    Which goes to the point that I think has been made at other 
tables. We have a tendency always to fight the last war, and 
because a sharp object was used that is what we are--now we are 
focusing on taking away things from people. The truth is a 
trained terrorist needs nothing. His bare hands and bad intent 
will be enough if he is trying to do something bad. So we 
should focus on the next threat or new threats that we haven't 
really covered, which includes some of the members of this 
committee, of looking for explosive devices that are not 
detected because they are not metal, and rather than looking 
for all these tiny sharp objects. We should worry about the 
next threat, not the last one.
    Mr. Lungren of California. Ms. Kolander, you had mentioned 
earlier that you felt there was insufficient training now from 
a security standpoint with respect to how crews should respond. 
And I guess I would ask, in the context of what was just 
suggested; that is, that individual members of the flying 
public would react differently than they would have prior to 9/
11. That would suggest that the attendants would probably do 
something or give different sorts of commands than they would 
have before 9/11. Has that been incorporated into the kind of 
training programs that you have?
    Ms. Kolander. Chairman, you would think, as you said, that 
would suggest that has been incorporated into the training. 
But, again, going along the same lines as having a standardized 
security training does involve how to react to situations where 
your passengers may respond in this new method. In other words, 
that they take control. And from our AFA representatives we 
have heard that this training is not being included in the 
current security training. We have asked that helping flight 
attendants to learn how to respond to more aggressive 
passengers in the sense of either verbal or physical aggression 
when it is encountered is trained to them, and we are not 
seeing that.
    In the same lines, flight attendants do need to be trained 
in how to effectively manage a passenger load that may now be 
trying to take control over something to thwart an incident. It 
does go back to there has to be an effective communication 
method. And part of that effective communication method is that 
flight attendants need to be able to notify the flight deck 
immediately when something is happening, they need to be able 
to notify the Federal air marshals on board if they are on 
board. And all of that so that we can communicate as a team 
with the pilots, the Federal air marshals, and everyone else on 
effectively responding to this emergency system or this 
security event.
    So I don't think that currently we are seeing an effective 
training on how to manage the passengers when they start 
responding on their own to security incidents.
    Mr. Lungren of California. Thank you. The gentleman from 
the State of Washington.
    Mr. Dicks. Thank you, Mr. Chairman, and I regret that I 
could not be here to hear your testimony. We have base closure 
today, and in the State of Washington that is a big issue. And 
California, of course.
    I want to welcome all the witnesses here, and I hope that 
maybe you can just fill me in a little bit. Ms. Kolander, I am 
just--you agree with me, don't you, that flight attendants 
should be part of this discussion along with the airline 
pilots?
    Ms. Kolander. I certainly agree that flight attendants 
should be part of this discussion.
    Mr. Dicks. Because they are a part of the security effort 
on the airplane.
    Ms. Kolander. Flight attendants have an integral role in 
security on board the aircraft, in dealing with passengers, 
through screening, and everything else. We are vetted the same 
as pilots are. So to have this hearing without discussing 
flight attendants to go through security screening may not be 
in the best interest, I think, of this subcommittee, because 
our members--AFA only represents 46,000, but there is a lot 
more flight attendants that are flying around in commercial 
aircraft out there.
    Mr. Dicks. And you said they go through a vetting process. 
They go through a process of being checked and everything. And 
then is it your opinion that they, you know, there is a check 
every time you go through the TSA clearance. Right? Just, I see 
the flight attendants and pilots going through. They may go 
ahead of the passengers, but they go through the same screening 
system?
    Ms. Kolander. Yes. Flight attendants are subject to the 
same background check as pilots, and we are also subject to the 
same security screening as pilots and other passengers. We do 
go through the security lines.
    Mr. Dicks. Do you think that is necessary?
    Ms. Kolander. AFA believes that it is necessary. We don't 
necessarily agree that we stand in the same lines as other 
passengers. There has to be a compromise, and we think that the 
ID along with a layer of screening creates a more effective 
security system. This is security--effective security screening 
is a layered approach. Part of that approach is the ID and part 
of that is security screening.
    Mr. Dicks. Do you also--I mean, the one thing I think you 
would worry about, you know, if a flight attendant or a pilot 
is getting on the airplane and somebody might have put 
something into their baggage. I know you always have it with 
you and all that, but you know how life is. Sometimes people do 
get separated for a few moments. I mean, to have it--it seems 
to me that it is an added layer of security to have--you know, 
to continue to have the things that are going to go on the 
airplane go through the same thing that passengers. Do you 
disagree with that?
    Ms. Kolander. No, I do not disagree. AFA believes that part 
of the layered security approach is that you do have the 
credential, which we have asked for, such as the TWIC program. 
But we also believe that you should have some screening. 
Because in the case that the credentialing, this new ID, does 
become compromised or the individual unwittingly becomes a 
mule, that is part of the layered approach. You can't just do 
only the security card, the TWIC card, or only screening. It is 
a combination, a layered approach.
    So, yes, our members are willing to go through the security 
screening process.
    Mr. Dicks. Captain, what is your view on that?
    Mr. Woerth. I share that view.
    Mr. Dicks. You agree with that?
    Mr. Woerth. Yeah.
    Mr. Dicks. What I have heard--fly a lot on United, okay, 
and I have asked the flight attendants, you know, how do they 
think this whole effort is going. And one of the things they 
mentioned--it is in your statement, too--is they don't think 
the flight attendants get enough training on this particular 
issue. Do you agree with that?
    Mr. Woerth. AFA does agree that our flight attendants are 
not receiving effective training at this point to properly 
respond to a security incident. We do believe that the training 
is inadequate, and it varies from carrier to carrier, and we 
would like to see that fixed. As an example, I don't think you 
were here, we gave an example where one carrier actually short-
changed the hours required for training just so that they could 
take the extra hour for lunch, so that the flight attendants 
wouldn't miss their lunch break. So that to me says how 
important security training is for our members. That is saying 
it isn't very important even after 9/11.
    Mr. Dicks. Captain Woerth, how do you feel about this?
    Mr. Dicks. As to flight attendant training?
    Mr. Dicks. Do you think the pilots get enough training on 
this subject?
    Mr. Woerth. I think all the training could be enhanced. It 
is still too much left over from pre-9/11, show the same 
videos. It is different from airline to airline. I must say 
there is not a standard. I represent 43 airlines; it is not the 
same at each one. But some have done just modest changes since 
9/11. Some of the same videos that I saw as a new hire at 
Braniff in the mid-1970s, they are just slightly updated in the 
1980s, are still shown, and a little discussion by an 
instructor and off you go.
    Mr. Dicks. So, again, you think more work can be done in 
this area?
    Mr. Woerth. Yes. I think the only pilots who have got 
really new training were our Federal flight deck officers. I 
mean, they have got extensive training, but the regular line 
pilot doesn't have a lot different than he had prior to 9/11.
    Mr. Dicks. Is there any guidance from TSA on training?
    Mr. Woerth. Not that I can see that is of any use to 
anyone.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Lungren of California. Before I recognize the chairman 
of the full committee, I was just going to say, Ms. Kolander, I 
was going to ask you if you could tell me the difference 
between the training of Aloha and Alaska Airlines, but I guess 
I won't.
    The Chairman.
    Mr. Cox. Thank you, Mr. Chairman.
    Just to finish up our discussion about the human centered 
focus of our counterterrorism efforts here and the fact that we 
are supposed to be going after terrorists, the threat--and I 
get, as the chairman of this full committee, briefings along 
with Mr. Thompson of Mississippi on a routine basis from the 
National Counterterrorism Center about the terrorist threat to 
the United States. It is a global threat, and our chief sources 
of concern, it will not surprise you, are overseas. So the 
people that we are looking for include a pretty healthy dose of 
folks who are, whatever their identification says, coming at us 
from other countries. We need, therefore, if we are using 
biometric forms of identification, for not just the pilots to 
identify that you are the pilot but also the passengers, to 
connect that to some reliable database. It strikes me that, to 
the extent that we get lucky and some of these terrorists 
overlap with the criminal class and we might have criminal 
records on them, that the biometric identifier most commonly in 
use around the rest of the world with Interpol and national and 
provincial police departments everywhere is the fingerprint, 
either multiple prints or single index finger. And a biometric 
system that is focused on the rest of the world and our ability 
to interchange data with them would be superior to one that 
just tells us a lot about ourselves.
    So I am wondering whether or not you would find it 
satisfactory if the Registered Traveler program and the TWIC 
program focused on that form of identification? Or do we need a 
TWIC program--because it is the pilot and we want additional 
security to make sure that whoever takes control of that 
aircraft is really the pilot, do we want a TWIC program that is 
based on additional biometrics such as a retinal scan?
    And I would be happy to hear from any of our three 
witnesses on that point. And, I mean, and I start from the 
premise that right now we have got nothing. We have absolutely 
nothing. We have what you have hanging around your neck, which 
you described as useless. So going to a biometric would be a 
sea change. Picking the biometric is a refinement, but that is 
at least my premise going in and I want your views.
    Mr. Woerth. I concur with certainly the last part of your 
statement, that any new change to any biometric as soon as 
possible would be light years ahead of what we have now, 
because we have really nothing that we didn't have 40 years ago 
today with our current ID cards. So whatever the TSA and the 
Congress can work out to get the first thing implemented with 
TWIC, whatever that happens to be, whether that be with 
fingerprints or something else, I am fine. Firstest with the 
mostest gets my vote. Just, let us get it started, and we can 
improve it later.
    But I also--I think you raised the other point that is very 
valid. At some point we want not just interoperability, we want 
the connectivity with all those other things we are doing.
    Mr. Cox. Including the terrorist watch list.
    Mr. Woerth. Including those. And I see either we are going 
to leave out the things and have multiple systems trying to do 
the same thing, and there is a good chance for everything to 
fall through the cracks. Simplicity, overlapping, and 
interoperability are the keys we ought to look for. And so I 
concur with what was really your statement there.
    Mr. Cox. Ms. Kolander or Ms. Burlingame?
    Ms. Kolander. I think that while the Registered Traveler 
program and all of those other programs could be effective in 
the long run, I think what we need to concentrate on doing is 
working on the programs, the credentialing cards for crew 
members. If that is the TWIC program, then we need to work on 
that first and foremost so that, as Captain Woerth has said, 
you actually start to reducing the amount of possibly excessive 
screening. And one of the biggest members of that group are the 
crew members, and so a high priority has got to be placed on 
getting that card out first.
    Mr. Cox. Ms. Burlingame, the last word.
    Ms. Burlingame. Well, my opinion on this is that--I mean, I 
don't know how these things work at these various bureaucracies 
on the Hill. And so I would echo what Mr. Woerth said, is you 
get the program up and running that you can get up and running 
first, because the terrorists aren't waiting around for us to 
figure it out. And although I have to say I disagree, with all 
due respect, a little bit to Ms. Kolander, I think the threat 
risk from the cockpit and the cabin crew is significantly 
lowered in the next 3 years before we get Real ID in effect; 
that we really have to--we really have to focus on where the 
danger is coming from, as Mr. Woerth said, from people, and 
those people are going to be the ones boarding the planes. The 
terrorists are very--they are very, very smart. We continually 
underestimate them. And this idea that passengers are going to 
rise up and prevent things from happening, I am not so 
confident about that. We had the example of Northwest 327 where 
the passengers essentially sat there. Now, I realize--I don't 
know if you are aware of this incident, where we had a lot of 
very, very unusual behavior from 14 Syrians who were traveling 
from, I believe it was Detroit to Los Angeles. Now, I believe 
there was a Federal air marshal on board, it turned out, but 
the passengers were paralyzed with fear. And part of it was 
because they were not doing the things that we know at least 
now, to the extent we can, that the 19 hijackers were doing on 
9/11. Their behavior was unusual and odd, and they couldn't--so 
the passengers didn't know how to respond to this.
    Also, remember that on 9/11 these hijackers selected very 
light loads. They were smart about it. They cased these 
flights. They flew 77, my brother's plane, before 9/11. They 
knew that there would be very few people that they would have 
to contend with. And if you listen to Betty Ong's tape recorded 
phone call, which lasted almost 30 minutes, there was a great 
deal she didn't know. Again, one of the other flight attendants 
on Flight 175, there was a great deal they didn't know because 
the hijackers pushed the passengers, the few that were there, 
to the backs of the planes so they wouldn't see.
    So I think that it is very important that we have this 
multi-layered approach. But I think the danger is not going to 
be coming from passengers or pilots, counterfeit pilots, the 
danger is going to come from abroad. And they are going to be 
sneaking through our borders, they are going to be embedding in 
our communities, and they are going to be figuring out ways, 
fashioning new ways, as Mr. Woerth said again, the next battle, 
not the one behind us.
    So I would urge, whatever the apparatus is, to get 
biometrics for the flying public. That is the one I would go 
with.
    Mr. Cox. This has been extraordinarily useful testimony. I 
think--I am sorry, Ms. Kolander, do you want to?
    Ms. Kolander. Yes, Mr. Chairman. May I just end with one 
comment?
    Mr. Cox. Yes.
    Ms. Kolander. Actually, I do believe that--Ms. Burlingame 
had actually said a comment earlier. She said: It is a failure 
of imagination that we don't look for any type of security 
threat. And I think that it is a failure of imagination if we 
think that a threat cannot come internally.
    Mr. Cox. By internally, you mean someone--.
    Ms. Kolander. From crew members.
    Mr. Cox. Someone that infiltrates the crew?
    Ms. Kolander. That is why we believe that you have to have 
the layered approach, the ID card, with the security screening.
    Mr. Cox. Ms. Burlingame, do you want to--.
    Ms. Burlingame. I agree. But I think that we don't have 
to--it is again the risk assessment that you mentioned earlier 
when you are trying to decide which technology to use. And I 
think there has to be a certain amount of--I think a concerted 
campaign to educate the public about biometrics. They have to--
I think they would be willing to embrace this, and I think 
their concerns about national ID and all these things I think 
are completely overblown. I think the American people and in 
general the flying public would be very amenable to this if it 
is explained to them. I think it is the job of you folks here 
on the Hill to make it clear to them what this is and why it is 
being done. But I think, obviously, again, the layered 
approach. But I think in terms of which technology to use, I 
would go with the one that is going to get up fast.
    Mr. Cox. So it is your judgment that, while there is in 
fact a risk that terrorists could masquerade as pilots or crew, 
that there is an even risk that they would come on board as 
passengers.
    Ms. Burlingame. I think it is a minimal risk that they 
would succeed as masquerading as a pilot. I mean, remember, 
Hani Hanjour, the fellow who took controls of my brother's 
plane, had about 200 hours in an aircraft. He was--I actually 
went and interviewed the flight instructors that took--
instructors that took him up in Bowie, Maryland. He was 
terrified of when he had the controls of a Cessna trying to 
land that plane, trying to--he was not a happy flier. And for 
him to masquerade as a pilot with 2, 3,000 hours in a cockpit 
instrument-rated pilot, I think--I just don't see how he could 
do it.
    But, again, then we have the example of Egypt Air. I think 
we do have to use our imaginations. We must not underestimate 
these people. We really must not. But I think the risk 
assessment, you know, do you spend all this money on a very, 
very far-fetched scenario, or do you put most of the money that 
you have and the resources you have in one that is very common 
and very practical and much more likely.
    Mr. Cox. Thank you. Thank you, Mr. Chairman.
    Mr. Lungren of California. Thank you. I thank the witnesses 
for your valuable testimony and the members for their 
questions. The members of the committee may have some 
additional questions for the witnesses, and I will ask you to 
respond to those in writing if you receive them. The hearing 
record will be open for 10 days. And, once again, I thank you 
all for being here.
    The committee stands adjourned.
    [Whereupon, at 11:19 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              --
--------


             Additional Questions Submitted For the Record

              Questions Concerning the Screening of Pilots

                   Questions for Ms. Debra Burlingame

    Thank you for your moving testimony. You mentioned that many 
airline pilots are former military pilots. In addition to airline 
pilots, who do you believe should also bypass regular checkpoint 
screening? For example, I was thinking, perhaps, the men and women who 
serve in the U.S. Armed Forces?
    There has not been a response recieved.

    In your testimony, you mentioned Operation Tarmac and the large 
number of undocumented aliens and other unauthorized workers who work 
at airports across the country. In your opinion, how might TSA work 
more closely with the airports around the country to develop sound 
hiring practices to prevent this from happening again?
    There has not been a response recieved.

                   Questions for Captain Duane Woerth

    Captain Woerth, in your testimony you mentioned the ``inherent 
weaknesses'' in operating a watch list. Could you please describe some 
of these weaknesses in more detail?
    There has not been a response recieved.

    Captain Woerth, in your testimony you mentioned various screening 
initiatives, from TWIC to Registered Traveler to Secure Flight to SPOT. 
To prioritize scare DHS resources, in your opinion, how would you rank 
order these programs and why?
    There has not been a response recieved.

    Throughout your testimony, you refer to the Israeli aviation 
security screening model that is ``human centered.'' Because great 
difference in Israel's geographic size vis-a-vis the United States's, 
do you really believe TSA could create a screener force as proficient 
and effective as in Israel, why or why not?
    There has not been a response recieved.

    In your testimony, you recommended educating employees as well as 
the general public to act as the ``eyes and ears'' of security. Please 
expand on your recommendation and discuss how a program might be 
developed that would include safeguards against terrorist 
countermeasures? In other words, how might such a program be developed 
without letting terrorists know what we're looking and listening for?
    There has not been a response recieved.

              Questions From the Honorable Christopher Cox

    Are methods currently in place to expedite the screening of airline 
pilots, especially in cases where they are under time pressure to 
report for duty, conduct pre-flight inspections, and so on to meet 
airline schedules? If not, what steps can be taken at airports to 
ensure that pilots are not unduly burdened by long lines at screening 
checkpoints and time consuming screening procedures?
    There has not been a response recieved.

    Can pilots currently use express lanes for screening at airports so 
equipped? How many airports have these express lanes? Who is eligible 
to use these express lanes (Registered Traveler Participants?)? At how 
many airports is the screening of pilots and crew carried out at 
locations separate from passenger screening?
    There has not been a response recieved.

    Are TSA screeners given any specific instructions or training 
regarding the screening of pilots or airline crew?
    There has not been a response recieved.

    Are their bona-fide concerns that terrorists could infiltrate 
secured areas of airports by posing as airline pilots? Can these 
concerns be mitigated through means other than exhaustive screening of 
pilots? Would background checks and tamper resistant identification 
cards suffice or would this simply leave the system exposed to more 
risk that the TSA is willing to accept?
    There has not been a response recieved.

    Can you provide for us your perspective of the status of the TWIC 
Program?
    There has not been a response recieved.

    Is it envisioned that pilots and flight attendants will eventually 
participate in the TWIC program?
    There has not been a response recieved.

    How will the vetting process in the TWIC program differ from that 
of the Registered Traveler program?
    There has not been a response recieved.

    Could pilots who have already been vetted through extensive 
criminal history records checks and checks against government terrorist 
watchlists be expedited through security screening in the same manner 
as participants in the Registered Traveler program?
    There has not been a response recieved.

    Is either the TWIC program or the Registered Traveler program 
better suited for including airline pilots?
    There has not been a response recieved.

    Has the TSA taken any action to remedy screening procedures 
complaints from pilots?
    There has not been a response recieved.

    The TWIC pilot program is currently scheduled to conclude on June 
30.
    What can you tell us about TSA's plans to continue to support those 
locations, including issuance of new cards as well card replacement and 
equipment maintenance, who have volunteered their time and resources 
over the last 2-1/2 years to participate in this program?
    There has not been a response recieved.

    Has TSA shared any plans to expand the program beyond Delaware 
River, LA/Long Beach and Florida between the end of the pilot program 
and publication of the Final Rule? Is it TSA's intention to cease work 
during that interim?
    There has not been a response recieved.

    TWIC stakeholders have indicated on numerous occasions in the past 
that the TWIC program office has not effectively communicated system 
progress, potential roadblocks and/or changes in project design or 
scope. In some instances, there have been no communications, while in 
others, the messages that are communicated are inconsistent.
    Similarly, the Committee has heard that TSA has not recently 
involved stakeholders, beyond perhaps those in Florida, in the program 
design and development stages. This was most recently illustrated in 
Philadelphia when TSA demonstrated the web portal for pre-enrollment, 
and there were several basic functionality suggestions made by 
potential system users.
    When these issues have been brought to TSA's attention in the past, 
TWIC program personnel have acknowledged some of the shortcomings and 
indicated they would work to improve these processes. However, it 
appears that few if any changes have been implemented over the last 12-
18 months.
    Has TSA discussed with you any plans to address these issues?
    There has not been a response recieved.

             Questions From the Honorable Daniel E. Lungren

    1. What is the status of the Transportation Worker Identification 
Credential (TWIC) and when will the card be deployed to transportation 
workers?
    There has not been a response recieved.

    2. What forms of identification does TSA permit for identification 
of passengers at airport checkpoints? Please submit a list.
    There has not been a response recieved.

    3. Does TSA accept the Matricula Consular card that is issued by 
Mexican authorities for verifying the identity of Mexican citizens 
traveling by air?
    There has not been a response recieved.

                                 <all>

</pre></body></html>
